Report No. DODIG-2013-093                      June 25, 2013





      DoD Needs to Improve Oversight of the Afghan 

      National Police Training/Mentoring and Logistics 

                      Support Contract

Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ACC-RI                        Army Contracting Command-Rock Island
ACO                           Administrative Contracting Officer
ANCOP                         Afghan National Civil Order Police
ANP                           Afghan National Police
CAR                           Corrective Action Request
COR                           Contracting Officer’s Representative
CSTC-A                        Combined Security Transition Command-Afghanistan
CTC                           Central Training Center
DCMA                          Defense Contract Management Agency
IJC                           International Security Assistance Force Joint Command
MoI                           Ministry of Interior
NTM-A                         North Atlantic Treaty Organization Training
                                 Mission-Afghanistan
QAR                           Quality Assurance Representative
RC                            Regional Command
RTC                           Regional Training Center
RRAD                          Red River Army Depot
SOW                           Statement of Work
TPSO                          Training Program Support Office
                                INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500




                                                                            June 25, 2013

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                 AGENCY
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              COMMANDER, INTERNATIONAL SECURITY
                 ASSISTANCE FORCE/U.S. FORCES-AFGHANISTAN

SUBJECT: DoD Needs to Improve Oversight of the Afghan National Police
         Training/Mentoring and Logistics Support Contract
         (Report No. DODIG-2013-093)

We are providing this report for review and comment. The Defense Contract
Management Agency (DCMA), Combined Security Transition Command-Afghanistan
(CSTC-A), and Army contracting officials need to improve oversight of the DoD Afghan
National Police (ANP) contract, valued at $1.2 billion. DCMA personnel did not
coordinate oversight processes and procedures with program or contracting personnel,
implement quality assurance requirements considered critical for mission success, review
oversight documentation, and properly train contracting officer’s representatives (CORs).
Furthermore, U.S. Forces-Afghanistan and DCMA officials did not have an adequate
fielded mentor oversight strategy to overcome the challenges of providing oversight in
Afghanistan. In addition, CSTC-A developed a memorandum of agreement with Red
River Army Depot to hire CORs for the ANP contract; however, the memorandum did
not identify appropriate COR qualifications. We considered management comments on a
draft of this report when preparing the final report. This is the second in a series of
reports on the DoD ANP contract.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We
received comments from Acting Commander, DCMA-International; the Deputy
Commanding General, CSTC-A; the Commander, Army Contracting Command; and the
Inspector General at the International Security Assistance Force Joint Command. The
comments from the Acting Commander, DCMA-International, on Recommendations B.1
and B.2.d were partially responsive. Therefore, we request additional comments from the
Commander, DCMA-Afghanistan, on these recommendations by July 25, 2013. We
considered comments from the Acting Commander, DCMA-International; Deputy
Commanding General, CSTC-A; the Commander, Army Contracting Command; and the
Inspector General, International Security Assistance Force Joint Command on
Recommendations A.1.a, A.1.b, A.1.c, A.2.a, A.2.b, B.2.a, B.2.b, B.2.c, B.2.e, C.1, C.2.a,
C.2.b, C.2.c, C.2.d, D.1, and D.2 responsive.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file
containing your comments to audacm@dodig.mil. Copies of your comments must have
the actual signature of the authorizing official for your organization. We are unable to
accept the /Signed/ symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet
Protocol Router Network (SIPRNET).
                                                                                       2




We appreciate the couttesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664-9 077).




cc:
Under Secretary of Defense for Acquisition, Technology, and Logistics
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Commander, U.S. Central Command
Commander, International Security Assistance Force Joint Command
Commander, Notth Atlantic Treaty Organization Training Mission-
    Afghanistan/Combined Security Transition Command-Afghanistan
Director, Acquisition Resources and Analysis
Director, Defense Procurement Acquisition Policy
Executive Director, Army Contracting Command-Rock Island
Report No. DODIG-2013-093 (Project No. D2012-D000AS-0137.000)                           June 25, 2013


               Results in Brief: DoD Needs to Improve
               Oversight of the Afghan National Police
               Training/Mentoring and Logistics
               Support Contract
What We Did
                                                       NTM-A/CSTC-A and Red River Army Depot
We determined whether the Army, North
                                                       (RRAD) personnel nominated six CORs we
Atlantic Treaty Organization Training
                                                       interviewed who were not effectively providing
Mission-Afghanistan (NTM-A)/Combined
                                                       oversight of the ANP contract. This occurred
Security Transition Command-Afghanistan
                                                       because NTM-A/CSTC-A personnel developed
(CSTC-A), and the Defense Contract
                                                       a memorandum of agreement with RRAD that
Management Agency (DCMA) had adequate
                                                       did not identify appropriate COR qualifications.
oversight processes and procedures for the
                                                       As a result, contractor performance at ANP
Afghan National Police (ANP) contract and
                                                       training sites where the six RRAD CORs were
whether DoD conducted adequate surveillance
                                                       appointed was not adequately measured and
of the contract, valued at approximately
                                                       assessed.
$1.2 billion. This is the second in a series of
audits on the ANP contract.
                                                       In addition, the Army could not determine
                                                       whether the contractor fully delivered
What We Found                                          $439 million in services or provided effective
DCMA, NTM-A/CSTC-A, and Army officials                 training of the ANP.
did not implement adequate oversight of the
ANP contract. This occurred because DCMA               What We Recommend
did not coordinate oversight procedures with
                                                       The Commander, DCMA-Afghanistan, should:
program or contracting personnel and did not
implement quality assurance requirements that
                                                          x   review the prior lead QAR’s and the
DCMA management considered critical to
                                                              prior QAR’s performance and hold them
mission success.
                                                              accountable for deficient performance as
                                                              appropriate;
Contracting officer’s representatives (CORs) for
the ANP contract did not conduct effective                x   establish a quality control process to
contractor oversight. This occurred because                   verify oversight was performed; and
DCMA personnel did not review COR audit                   x   establish a clear reporting strategy for
checklists, provide CORs feedback on                          fielded mentor COR oversight.
completed audit checklists, or train CORs on
oversight responsibilities.                            The contracting officer at Army Contracting
                                                       Command-Rock Island should coordinate with
DCMA and International Security Assistance             DCMA to determine whether the oversight
Force Joint Command officials did not perform          strategy was appropriate and implement a
adequate oversight of fielded mentors for the          strategy to consistently review contractor
ANP contract. This occurred because quality            internal corrective action requests.
assurance representatives (QARs) did not
always provide training and followup on audit          The Commander, U.S. Forces-Afghanistan
checklists received from the CORs.                     should establish and implement an effective
                                                       fielded mentor oversight strategy.
                                                   i
Report No. DODIG-2013-093 (Project No. D2012-D000AS-0137.000)                          June 25, 2013



The NTM-A/CSTC-A, Director of Contract                Command-Rock Island were responsive, and no
Management and Oversight, should rescind the          further comments are required.
memorandum of agreement with RRAD and
nominate CORs who have prior quality                  The Acting Commander, DCMA-International,
assurance experience.                                 responded for the Commander, DCMA-
                                                      Afghanistan, and agreed with the
Management Comments and                               recommendations to review the performances of
                                                      the prior lead QAR and the prior QAR, to
Our Response                                          establish a quality control process to verify
Comments from the Inspector General,                  required oversight was performed, and to
International Security Assistance Force Joint         establish a clear reporting strategy for fielded
Command, responding for the Commander, U.S.           mentor COR oversight. We request additional
Forces-Afghanistan; the Deputy Commanding             comments from the Commander, DCMA-
General, CSTC-A, responding for the NTM-              Afghanistan on Recommendation B.1 to update
A/CSTC-A, Director of Contract Management             the Theater Quality Plan to specify that
and Oversight and the Director of the Training        supporting documentation should be included
Program Support Office; and the Commander,            when an audit cannot performed, and on
Army Contracting Command, responding for              Recommendation B.2.d regarding how Phase II
the Contracting Officer at Army Contracting           training will be conducted. Please see the
                                                      Recommendations Table on the next page.




                                                 ii
Report No. DODIG-2013-093 (Project No. D2012-D000AS-0137.000)                   June 25, 2013

Recommendations Table

          Management                      Recommendations               No Additional
                                         Requiring Comment            Comments Required
Commander, U.S.                                                 C.1
Forces-Afghanistan
Commander, Defense Contract          B.1, B.2.d                 A.1.a, A.1.b, A.1.c, B.2.a,
Management Agency-Afghanistan                                   B.2.b, B.2.c, B.2.e, C.2.a,
                                                                C.2.b, C.2.c, C.2.d
North Atlantic Treaty Organization                              D.1
Training
Mission-Afghanistan/Combined
Security Transition
Command-Afghanistan, Director of
Contract Management and
Oversight
North Atlantic Treaty Organization                              D.2
Training
Mission-Afghanistan/Combined
Security Transition
Command-Afghanistan, Director of
the Training Program Support
Office
Contracting Officer, Army                                       A.2.a, A.2.b
Contracting Command-Rock Island

Please provide comments by July 25, 2013.




                                                  iii
Table of Contents 

Introduction                                                              1     

      Objectives                                                          1     

      Background                                                          1     

      Review of Internal Controls                                         3


Finding A. Contract Oversight Needs Improvement                           4

      Statement of Work Requirements Omitted From Audit Checklists        5

      Contractor’s Program Management Office and Logistics Warehouse 

              Needed Oversight                                            7

      Audit Checklists Needed Updating as Requirements Changed            8

      CORs Not Provided Tools to Perform Oversight                        9

      Consistent Oversight Needed at Training Sites                      11 

      Contractor Did Not Address Internal Corrective Action Requests     12 

      Communication Required Between Oversight Personnel, 

              Requirement Owners, and Contracting Office                 14 

      Critical Quality Assurance Requirements Must Be Implemented        15 

      Conclusion                                                         16     

      Recommendations, Management Comments, and Our Response             16 


Finding B. Incomplete Audit Checklists Hinder Contractor Oversight       21 

      Audit Checklists Were Not Completed in Accordance With Guidance    21 

      Inadequate Review and Lack of Feedback on COR Audit Checklists     25 

      Training CORs to Monitor Contractor Performance                    26 

      Conclusion                                                         28     

      Recommendations, Management Comments, and Our Response             28 


Finding C. Improved Oversight of the Fielded Mentors Needed              32

      COR Nomination and Appointment                                     32 

      Fielded Mentor CORs Completion of Audit Checklists                 34 

      Need to Develop an Oversight Strategy for Fielded Mentors          37 

      QARs Need to Provide Training and Review Audit 

             Checklists for Fielded Mentor Services                      38 

      Conclusion                                                         39     

      Recommendations, Management Comments, and Our Response             39 


Finding D. Red River Army Depot CORs Were Not Providing

            Effective Oversight                                          43

      COR Memorandum of Agreement                                        43 

      COR Nomination Process                                             43     

      Nominated and Appointed CORs Were Ineffective                      43 

Table of Contents (cont’d)
     CORs Needed to Be Better Qualified                          44 

     Conclusion                                                  45     

     Recommendations, Management Comments, and Our Response      45 


Appendixes
     A. 	Scope and Methodology                                   47 

            Use of Computer-Processed Data                       48 

            Use of Technical Assistance                          48 

            Prior Coverage                                       48 

     B. Monthly Oversight Performed at Sites Visited 	           50 

     C. Map of ANP Training Sites and Fielded Mentor Regions 	   51 

     D. 	Regional Command-Southwest Oversight Personnel and 

            COR Appointment Status                               52 


Management Comments
      International Security Assistance Force Joint Command      53 

      Defense Contract Management Agency-International           55 

      Combined Security Transition Command-Afghanistan           62 

      Army Contracting Command                                   65 

Introduction
Objectives
The overall audit objective was to determine whether DoD officials were using
appropriate contracting processes to satisfy mission requirements and were conducting
appropriate oversight of the Afghan National Police (ANP) contract in accordance with
Federal and DoD policies. For this audit, we determined whether the Army, North
Atlantic Treaty Organization Training Mission-Afghanistan (NTM-A)/Combined
Security Transition Command-Afghanistan (CSTC-A), and the Defense Contract
Management Agency (DCMA) had adequate oversight processes and procedures for the
contract. Additionally, we determined whether the Army, NTM-A/CSTC-A, and DCMA
conducted adequate contractor surveillance.

This audit is the second in a series of audits on the ANP training/mentoring and logistics
support contract. We reported on the adequacy of contract administration in Report No.
DODIG-2012-094, “Afghan National Police Contract Requirements Were Not Clearly
Defined but Contract Administration Improved,” May 30, 2012.

Background
Army Contracting Command-Aberdeen Proving Ground officials awarded the Afghan
Ministry of Interior (MoI) and ANP training/mentoring and logistics support contract (the
ANP contract), W91CRB-11-C-0053, valued at approximately $1 billion, to DynCorp
International, LLC (DynCorp), on December 20, 2010. The ANP contract was a
cost-plus-fixed-fee contract that included a 120-day transition period for the contractor to
become fully operational, a 2-year base period, and a 1-year option period. On
May 1, 2011, the ANP contract became fully operational, and Army Contracting
Command-Rock Island (ACC-RI) assumed ANP contract management responsibilities
for all new contracting actions. However, Army Contracting Command-Aberdeen
Proving Ground officials did not formally transfer the contract administration
responsibilities through a contract modification to ACC-RI until August 31, 2011. At the
time of contract transfer, the contract value had increased by approximately
$145.3 million. As of September 28, 2012, the total estimated contract value was
approximately $1.2 billion.

The purpose of the contract was to assist the Afghanistan government in building,
developing, and sustaining an effective and professional law enforcement organization.
The contract required mentorship and training aimed at enhancing public security, MoI
and ANP morale, and public perception of the ANP. Specifically, the contractor was
required to support the MoI/ANP training program by delivering classroom instruction,
delivering “on-the-job” mentoring (post-classroom), and providing comprehensive
logistics and life support at various facilities throughout Afghanistan. The goal of the
program was to train and mentor the Afghans to manage all aspects of ANP training
within 2 years of contract award.


                                             1

Statement of Work
The ANP base contract included a general statement of work (SOW) outlining the
contractor’s program management requirements. The ANP contract also included
two SOW attachments outlining other contract requirements. One attachment outlined
the requirements for training and mentoring services at MoI and ANP locations
throughout Afghanistan. The other outlined the basic life support and force protection
services the contractor was required to provide at the regional training centers and
training support sites, including base security, food service, housing, cleaning, and
medical services.

Responsible Organizations
Multiple North Atlantic Treaty Organization and DoD Components were responsible for
providing oversight of the MoI/ANP training program. Under the Commander,
International Security Assistance Force/U.S. Forces–Afghanistan, two subordinate
commands were responsible for supporting ANP development, training, and sustainment:
NTM-A/CSTC-A and the International Security Assistance Force Joint Command (IJC).
NTM-A/CSTC-A was responsible for building MoI capacity and training, mentoring, and
equipping the ANP. IJC conducted joint security and stability operations to improve the
effectiveness of the ANP. Within NTM-A/CSTC-A, two key officials, the Deputy
Commander, Police and the Deputy Commanding General for Support were responsible
for supporting the mentoring, training, and equipping of ANP forces.

Under the Deputy Commanding General for Support, the Training Program Support
Office (TPSO) executed and managed the ANP contract. TPSO was responsible for
providing program management and oversight of the ANP training contract and
coordinating with DCMA-Afghanistan for execution and oversight of the contract.

Contract Oversight
The contracting officer delegated contract administration responsibilities for the ANP
contract to DCMA-Afghanistan in February 2011. DCMA-Afghanistan’s contract
oversight responsibilities included ensuring contractor compliance with contractual
quality assurance requirements, ensuring timely submission of required reports,
appointing contracting officer’s representatives (CORs), and having monthly contact with
the CORs. DCMA created a Theater Quality Plan to provide guidance for CORs and
personnel providing oversight of contracts in Afghanistan.

The DCMA lead quality assurance representative (lead QAR) was responsible for
oversight of personnel implementing the requirements in the Theater Quality Plan. The
lead QAR was also responsible for requiring the ANP contract QARs and CORs to use
the proper audit checklists, recommending changes and updates to the audit checklists,
and verifying that the QARs reviewed and analyzed audit checklist and corrective action
request (CAR) data to evaluate contractor performance.

The Theater Quality Plan stated that the QAR was required to routinely work with other
DCMA staff, contractor personnel, CORs, and the requirements owners. The QAR
responsibilities included providing oversight as assigned, submitting the completed audit
                                            2

checklist to the appropriate DCMA-Afghanistan e-mail address within 3 days of
completion, performing monthly data analysis of audit checklists and CARs, coordinating
with the administrative contracting officer (ACO) and lead QAR to identify COR
requirements and deficiencies, providing DCMA COR training, conducting an initial
joint validation audit checklist with the COR as part of the process for the COR’s initial
appointment; mentoring CORs, and evaluating and approving COR audit checklists to
establish that DCMA quality standards were met.

The Theater Quality Plan required that CORs be designated in accordance with
subsection 201.602-2 of the Defense Federal Acquisition Regulation Supplement and
authorized in writing by the ACO to perform contract administrative functions and
oversight of contractor performance. The COR responsibilities included performing
duties in accordance with the COR appointment letter, Theater Quality Plan, and the
DCMA-Afghanistan COR Management Guide; monitoring contractor performance by
using DCMA surveillance audit checklists provided by the QAR; forwarding all
completed audit checklists to the QAR; and interacting with the QAR to identify and
document contractor performance problems.

Oversight of Fielded Mentors
The ANP contract required the contractor to provide fielded mentors to conduct training
and mentoring operations in support of the ANP mentoring teams. The fielded mentors,
who provided on-the-job training and guidance to ANP mentoring teams, were required
to live, sleep, and eat with the teams.

IJC was responsible for nominating military personnel as fielded mentor CORs to provide
oversight of the contractor fielded mentors. IJC officials, independent of
NTM-A/CSTC-A, had military personnel as CORs because IJC was the requirements
owner for the fielded mentor positions.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses within DCMA-Afghanistan, ACC-RI, NTM-A/CSTC-A, and IJC.
Specifically, DCMA-Afghanistan officials did not provide CORs with complete oversight
guidance and audit checklists, maintain oversight of all ANP training contract
requirements, and implement DCMA quality assurance criteria. Furthermore, DCMA
and ACC-RI officials did not coordinate to create an effective oversight strategy for the
ANP contract. DCMA officials also did not coordinate oversight processes or update
audit checklists with input from NTM-A/CSTC-A program personnel. In addition,
DCMA-Afghanistan personnel and IJC officials did not consistently nominate and
appoint CORs to provide oversight of the contractor fielded mentors and did not have an
adequate fielded mentor oversight strategy in place. We will provide a copy of the report
to the senior official responsible for internal controls in DCMA-Afghanistan, ACC-RI,
and NTM-A/CSTC-A.

                                            3

Finding A. Contract Oversight Needs
Improvement
DCMA, NTM-A/CSTC-A, and ACC-RI officials did not implement adequate oversight
procedures for the ANP contract. Specifically, DCMA officials did not:

    x    include portions of all 22 sections of the SOWs in the audit checklist used to
         perform oversight of the ANP contract,
    x    maintain oversight of the contractor’s program management office or the
         ANP logistics warehouse,
    x    provide timely updates to the 11 ANP audit checklists1 based on modifications to
         the contract SOW and DCMA oversight criteria,
    x    provide 8 of the 10 CORs we interviewed with the proper audit checklists or
         require the CORs to complete the required audit checklists,
    x    maintain consistent oversight at the 12 ANP training locations2 where we
         reviewed audit checklists, or
    x    validate that the contractor resolved internal CARs in a timely manner.

This occurred because DCMA personnel did not:

    x	 coordinate with the NTM-A/CSTC-A program management personnel,
       requirements owners, or ACC-RI contracting personnel when generating or
       updating audit checklists;
    x coordinate oversight procedures with ACC-RI contracting personnel during the
       contracting process; and
    x implement the quality assurance requirements for oversight in Afghanistan that
       DCMA considered critical to mission success.

As a result, ACC-RI could not determine whether the contractor fully delivered services
worth $439 million3 included in the ANP contract. Additionally, the ACC-RI contracting
officer would not be able to determine whether the contractor provided effective training
for the ANP, which could affect the Afghan National Security Forces capabilities in
leading security operations throughout Afghanistan.




1
  There were 11 COR audit checklists, which included 7 trainer/mentor audit checklists, 1 trafficking in
persons checklist, 1 force protection audit checklist, and 2 life support services audit checklists. CORs
were required to complete different audit checklists depending on the contractor services provided at their
assigned location.
2
  As of October 2012, there were 25 training locations. The number of training sites was reduced as the
sites were closed or transitioned to Afghan control.
3
  The $439 million in services was the total charged on invoices for the contract as of September 2012.

                                                     4

Statement of Work Requirements Omitted From
Audit Checklists
The lead QAR did not include portions of all 22 sections of the SOWs in the audit
checklists used by the QARs and CORs to perform oversight of the ANP contract. The
DCMA Theater Quality Plan, signed by the Commander of DCMA-Afghanistan in
December 2011, states that the lead QAR is responsible for requiring the QARs and
CORs to use the proper audit checklists and for recommending changes and updates to
the audit checklists. Additionally, the QAR assigned to the ANP contract is responsible
for determining whether the contractor complied with contract requirements. The
lead QAR did not create audit checklists that completely covered either of the 2 overall
requirements in the life support services SOW or portions of 20 overall requirements in
the trainer/mentor services SOW. DCMA personnel stated that the lead QAR and QAR
analyzed the SOWs to determine which SOW requirements to include in the audit
checklists. However, DCMA was unable to provide any documentation explaining how
the analysis was done or why certain SOW requirements were omitted from the
checklists.

The life support services SOW included the ANP contract requirements for basic life
support, security, and food service operations at the ANP training sites. The lead QAR
did not include all of the life support SOW requirements in the COR audit checklists.

For example, section 3.1 of the security section of the life support services SOW required
the contractor to:
               Man open ECPs [Entry Control Points] and maintain installation security. Searching
               personnel and vehicles entering and leaving the installations to deny the introduction of
               unauthorized weapons or contraband, to prevent theft of GIRoA [Government of the
               Islamic Republic of Afghanistan] and U.S. Government property and to ensure only
               authorized personnel gain access. Manning shall be at a sufficient level to enable the
               operation of all access denial barriers, overmatch locations, search locations, and other
               control measures in place for ECPs.

However, the force protection services audit checklist the CORs were required to
complete did not include reviewing this entry control point security requirement.
DCMA officials did not have assurance that the training sites were secure because the
CORs were not required to provide oversight of contractor performance for access to
ANP training facilities.

Additionally, the basic life support section of the life support services SOW stated:
               Health and welfare inspections shall be performed to ensure all edifices on facilities are
               safe, in working order, and properly maintained. Should, at any time, during these
               inspections illegal or unauthorized substances, equipment, or items be found, they shall
               be reported to the Security Manager and COR for action.

However, the basic life support audit checklist did not include reviewing the health and
welfare inspection requirement. Therefore, DCMA officials were not informed about
health and safety problems that existed at the ANP training sites. For example, during

                                                   5

our site visit to Regional Training Center (RTC) Kandahar, the COR stated that gasoline
containers had been improperly stored at the training site. Although the COR identified
the improper storage and had the contractor correct the deficiency, the basic life support
checklist did not prompt the COR to make note of the improper fuel storage.

The trainer/mentor services SOW provided the contract requirements for developing,
supporting, and increasing the capabilities of the ANP forces and the Afghan MoI. The
SOW for command mentoring included contractor mentoring services at Central Training
Center (CTC) Kabul and RTCs Helmand, Herat, Konduz, and Mazar-e-Sharif. However,
the lead QAR did not include all command mentoring requirements in the audit checklist.
For example, the DCMA audit checklist did not include requirements to:

    x    assess whether the contractor assigned the students to appropriate class sizes;
    x    evaluate whether the contractor coordinated with the site command regarding the
         number of police to be trained or the type of training;
    x    observe whether the contractor assisted the Afghan financial and logistics
         managers in developing contracts for supplies, equipment, and services; or
    x    review whether the contractor evaluated the Afghan commanders’ understanding
         of training management.

Therefore, DCMA could not determine whether the contractor fully performed all
command mentor requirements at each training site.

Not every audit checklist item applied at every
site, which caused confusion when the CORs              Not every audit checklist item
completed their audit checklists. For example,           applied at every site, which
the training adviser audit checklist included         caused confusion when the CORs
assessing whether the contractor met the               completed their audit checklists.
requirements from the training adviser section of the trainer/mentor services SOW.
Specifically, the audit checklist included the question, “Does the contractor provide
11 female trainers to properly train the Women’s Police Corps Program of Instruction
students at the Regional Training Centers?” However, not all of the training sites where
the CORs were assigned to complete the training adviser audit checklist4 had Women’s
Police Corps training. Furthermore, the 11 required trainers was a contract-wide
requirement, not specific to one Women’s Police Corps training site. Therefore, the
CORs were not able to sufficiently answer this question because the audit checklist did
not specify to whom the requirement applied.




4
 Of the 12 training sites where the audit team reviewed audit checklists, the training adviser audit checklist
was required to be completed by the CORs at RTCs Kandahar, Konduz, Jalalabad, Mazar-e-Sharif,
O-4 Compound, and Training Sustainment Site-Lonestar.

                                                      6

Contractor’s Program Management Office and Logistics
Warehouse Needed Oversight
DCMA officials did not maintain oversight of the contractor’s program management
office or the ANP logistics warehouse. Specifically, the lead QAR and the QAR assigned
to the ANP contract did not develop an audit checklist and did not assign a COR
oversight responsibilities for the contractor’s program management office or the ANP
logistics warehouse in Kabul. The basic contract included a contract line item number
for the program management office and outlined general program management
requirements.

According to the ANP contract, the contractor-operated program management office in
Kabul was required to provide administrative, management, logistical, and other support
to the ANP training sites throughout Afghanistan. DCMA personnel had no assurance
that the contractor was adequately managing contract requirements in-theater without
oversight of the program management office. Some of the audit checklists included
questions about work that should have been performed at the program management
office; however, the CORs were only responsible for oversight at their assigned training
sites and could not answer the questions about the program management office.

For example, the force protection services audit checklist included questions that required
the COR at each training site to review whether the contractor had conducted background
checks, had a DNA sample, and had completed a screening process before hiring
Afghans to work at the training centers. The
contractor’s program management office in              There was no Government
Kabul maintained background check and DNA              oversight of the contractor
information. The CORs at the training centers         program   management office.
were not able to review whether the contractor
adequately vetted Afghan employees, and there was no Government oversight of the
contractor program management office. As a result, there was no direct oversight of
whether the contractor hired Afghan personnel who would be a threat to security at the
training sites. The lead QAR should develop and implement an oversight strategy for the
contractor’s program management office to validate that the contractor provides proper
contract management support and administration.

Contractor personnel at the ANP logistics warehouse were responsible for distributing
Government-purchased supplies to ANP training sites. DCMA personnel did not develop
an audit checklist that addressed contractor responsibilities and did not assign a COR to
provide oversight at the ANP logistics warehouse. DCMA officials had no assurance that
the contractor adequately secured, managed, and tracked Government-purchased supplies
in-theater or that the contractor maintained required inventories without oversight of the
ANP logistics warehouse. The lead QAR should provide oversight of the logistics
warehouse to determine whether the contractor maintained accurate and complete
inventories, and whether the contractor properly secured, managed, and tracked
Government-purchased supplies.



                                            7

Audit Checklists Needed Updating as Requirements
Changed
The lead QAR did not provide timely updates to the 11 ANP audit checklists based on
modifications to the contract SOW and DCMA criteria. The lead QAR stated that the
QAR assigned to the ANP contract was responsible for updating the audit checklists and
the lead QAR would then verify the updated audit checklists. However, the DCMA
Theater Quality Plan stated that the lead QAR was responsible for recommending
changes and updates to the audit checklists.

Audit Checklists Not Updated to Reflect Statement of Work
Modifications
ANP training sites continuously closed or transferred to the Afghans as the Afghan
National Security Forces took on additional responsibilities for security and police
training. When an ANP training site closed, the contracting officer issued a notice to
proceed, directing the contractor to stop work at that training site. The contracting
officer, with assistance from NTM-A/CSTC-A personnel, would subsequently modify the
contract to include all notices to proceed that were issued since the previous SOW
modification.

The lead QAR did not update the audit checklists in a timely manner after the contracting
officer issued SOW modifications. For example, the contracting officer issued an
updated trainer/mentor services SOW in December 2011. However, the lead QAR did
not update the audit checklists to reflect the December 2011 SOW modification until
March 2012, and the QAR did not provide the CORs with the updated audit checklists
until April 2012. Therefore, the CORs for the ANP contract used an outdated audit
checklist for 4 months. Additionally, even after the lead QAR updated the audit
checklists, the checklists did not include all of the SOW changes, and requirements
deleted from the SOW based on notices to proceed were not deleted from updated COR
audit checklists. In another example, the trainer/mentor audit checklists included three
questions regarding whether the contractor provided the ANP judicial security unit with
training; however, the updated SOW no longer included the judicial security unit
requirement.

In some cases, although the lead QAR had updated the audit checklists, the QAR
assigned to the ANP contract still provided outdated audit checklists to the CORs. One
COR we interviewed used an audit checklist drafted by DCMA in November 2011 to
conduct oversight in May 2012. The lead QAR updated the audit checklist in
March 2012 to reflect the December 2011 SOW. However, the QAR assigned to the
ANP contract did not provide the COR the updated audit checklist until June 2012,
3 months after the lead QAR updated the audit checklist and 6 months after the
contracting officer modified the SOW. Since the audit checklists did not adequately
reflect the SOW, the CORs could not adequately assess the contractor on current
requirements or were assessing the contractor on a requirement that was no longer
included in the ANP contract.


                                            8

Audit Checklists Must Match DCMA Guidance
The lead QAR did not provide the CORs with audit checklists that complied with the
Theater Quality Plan. The audit checklists used by the CORs through March 2012 did
not include the requirements outlined in the DCMA Theater Quality Plan regarding how
the COR should complete the audit checklist. For example, the DCMA Theater Quality
Plan stated, “if ‘yes’ is checked on any questions in the body of the checklist, comments
are required detailing what was evaluated, where, and in what manner.” However, the
COR audit checklists stated, “YES = requirement performed satisfactory. [The COR]
may comment when key observations are noted.” Additionally, the DCMA COR
Management Guide stated the QAR was responsible for reviewing all COR audit
checklists for completeness and approving audit checklists to ensure the CORs met
DCMA quality standards.

The QAR assigned to the ANP contract did not          The QAR assigned to the ANP
require the CORs to meet DCMA quality                  contract did not require the
standards when completing the audit checklist.         CORs to meet DCMA quality
The CORs did not always include comments in             standards when completing
their audit checklists when they answered a                 the audit checklist.
question “yes,” and the guidance included in the
audit checklist did not require them to do so. The QAR would accept the COR audit
checklist with no comments and would include the audit checklist in the DCMA audit
checklist repository as if it met DCMA requirements. For example, in January 2012, the
COR at RTC Kandahar answered the audit checklist question, “Does the contractor
provide all required transportation as well as not permitting privately owned vehicles
onto the property?” with a “yes” response, but did not provide any comments regarding
what he evaluated and in what manner. Although the Theater Quality Plan required an
explanation for a “yes” checklist response, the RTC Kandahar audit checklist for
January 2012 indicated the COR may comment when key observations were noted.
However, the COR did not provide comments. The QAR assigned to the ANP contract
should have required the COR to provide comments when he reviewed the audit
checklists.

The Theater Quality Plan stated documentation of contractor conformance or
nonconformance with contract requirements was essential to sustaining desired contractor
performance. However, the lead QAR and QAR assigned to the ANP contract could not
effectively evaluate whether the contractor conformed to the contract requirements if the
COR did not properly document responses to audit checklist questions.

CORs Not Provided Tools to Perform Oversight
The lead QAR and QAR assigned to the ANP contract did not provide CORs with the
proper audit checklists and supporting documentation or require the CORs to complete
the required audit checklists. The DCMA Theater Quality Plan stated the lead QAR was
responsible for requiring the QARs and CORs to use the proper audit checklists. The
QAR assigned to the ANP contract stated that he was responsible for providing the CORs
with the audit checklists when the CORs were assigned to an ANP training site.


                                            9

Additionally, according to the DCMA COR Management Guide, the QAR was
responsible for providing the COR with a review of the important requirements in
the SOW.

The QAR assigned to the ANP contract did not provide 8 of the 10 CORs we interviewed
with the audit checklists required to be completed at their assigned training sites, a copy
of the SOW, or the most up-to-date version of the SOW prior to arriving at their
oversight location. For example, the QAR did not provide the COR at RTC Helmand
with the trainer/mentor services audit checklist that addressed contractor services
provided for logistics mentoring during 2 consecutive months. The QAR provided the
COR with a different trainer/mentor services audit checklist, which did not apply to the
work the contractor performed at RTC Helmand.

Furthermore, the QAR did not provide the COR at
                                                             The QAR did not provide
RTC Herat with the trainer/mentor services audit
                                                           the COR at RTC Herat with
checklist and did not direct the COR to perform
                                                            the trainer/mentor services
training oversight. The QAR provided the COR at
                                                            audit checklist and did not
RTC Herat with the required trainer/mentor services
                                                             direct the COR to perform
audit checklist and informed the COR of his
                                                                 training oversight.
oversight duties after we told the lead QAR and
QAR there was a gap in oversight coverage. In another example, the QAR did not
provide the COR at CTC Kabul with the trainer/mentor services audit checklist for the
training that occurred at that site, and therefore, the COR did not know training oversight
was required.

The trainer/mentor audit checklists stated, “a copy of the SOW must accompany this
checklist.” However, the QAR assigned to the ANP contract did not provide the CORs at
RTC Gardez and Training Sustainment Site-Lonestar a copy of the required audit
checklists or a copy of the contract SOW prior to those CORs arriving at their assigned
oversight locations. We provided the COR at RTC Gardez a copy of the SOW, and the
COR at RTC Gardez subsequently provided the SOW to the COR at Training
Sustainment Site-Lonestar. Without a copy of the SOW, the CORs were not aware of all
of the training requirements in the ANP contract.

DCMA personnel provided three other CORs with copies of outdated SOWs. For
example, the QAR provided the COR assigned oversight of the trainer/mentor services at
the Afghan MoI with a February 2011 version of the SOW. However, the most up-to-
date SOW when the COR was assigned MoI oversight was dated December 2011. As a
result, DCMA personnel did not provide complete oversight of the ANP services
conducted at those sites because the CORs were not provided the correct SOW to use to
evaluate whether the contractor was meeting contract requirements.

The DCMA COR Management Guide and Theater Quality Plan state that the QAR is
required to maintain records and manage and mentor CORs. However, the QAR
assigned to the ANP contract did not provide 7 of the 10 CORs we interviewed with
copies of audit checklists that were completed by the prior CORs at the sites they were

                                            10

assigned. Without copies of the previous COR audit checklists, the CORs were not able
to identify systemic performance issues and other contract nonconformances previously
identified at the ANP training sites. The lead QAR stated that all completed audit
checklists were kept in a DCMA central electronic filing system. Therefore, DCMA
personnel could have provided prior audit checklists to new CORs so that the new CORs
were aware of past contract nonconformances at their assigned training site. The QAR
assigned to the ANP contract should provide the CORs with the necessary oversight
documentation that applies to the training sites the CORs are assigned, as required by the
Theater Quality Plan and COR Management Guide.

Consistent Oversight Needed at Training Sites
DCMA officials did not maintain consistent oversight at the 12 ANP training sites where
we reviewed audit checklists. Specifically, the lead QAR did not coordinate with the
QAR and the ACO to fill COR vacancies at ANP training sites where no COR was
assigned and no oversight was provided. The Theater Quality Plan required the lead
QAR, QAR, and ACO to coordinate and identify COR requirements and deficiencies.
The Theater Quality Plan also stated that the
QAR should complete an audit checklist by           The lead QAR, QAR, and ACO
contacting requirements owners and reviewing         allowed gaps in oversight at
contract documentation for those training sites     several ANP training locations
where an onsite audit cannot be performed.         where no QAR or COR oversight
However, the lead QAR, QAR, and ACO                 occurred for 2 or more months.
allowed gaps in oversight at several ANP
training locations where no QAR or COR oversight occurred for 2 or more months.

Of the 12 sites where we reviewed audit checklists, 4 had oversight gaps of 2 or more
months for the 6-month period from January 2012 through June 2012.5 For example,
there was no COR at RTC Bamiyan for 5 consecutive months from February 2012
through June 2012. Personnel from TPSO performed a site visit and completed one audit
checklist in May 2012. However, no COR was permanently assigned onsite, and TPSO
personnel did not revisit RTC Bamiyan to complete any additional audit checklists.
When we visited RTC Bamiyan, onsite Army personnel identified a potential COR who
could perform oversight duties and had completed the required COR training. When
notified, DCMA personnel did not take action to nominate and appoint this person as the
COR at RTC Bamiyan.

According to the ANP contract, the contractor was required to perform trainer/mentor
services at RTC Herat. However, a COR at RTC Herat did not submit a trainer/mentor
audit checklist from January through March 2012 despite being onsite full time. The
COR was notified by the QAR assigned to the ANP contract that he had to complete a
trainer/mentor audit checklist in February 2012. However, the QAR took no further
action, the lack of trainer/mentor oversight continued, and the COR redeployed in
March 2012.


5
    See Appendix B for monthly oversight performed at the sites we visited.

                                                      11

Additionally, DCMA did not assign a COR to CTC Kabul for 3 consecutive months. The
lead QAR and the QAR assigned to the ANP contract were located at a U.S. installation
in Kabul, and although the training site was also in Kabul, the QAR did not travel to
CTC Kabul to perform an oversight audit. As a result, no Government oversight was
performed from February through April 2012.

The DCMA Theater Quality Plan stated, “Quality Assurance(QA) oversight is critical to
contract administration and ultimately mission success.” However, if DCMA had COR
vacancies, and the QAR did not perform oversight at training sites where there were no
CORs, then DCMA did not perform the required quality assurance oversight. The lead
QAR, QAR, and ACO should coordinate to identify and fill COR vacancies in a timely
manner so that oversight gaps of 2 or more months do not occur.

Contractor Did Not Address Internal Corrective
Action Requests
DCMA officials did not validate that the contractor resolved internal CARs6 in a timely
manner. The Theater Quality Plan states that a level II CAR must be issued when a
contractual nonconformance cannot be corrected on the spot or is considered systemic,
unless a contractor internal CAR was previously issued on the nonconformance. The
Director, Quality Assurance, DCMA-Afghanistan, and the lead QAR stated that DCMA
would not issue a CAR if the contractor had an open internal CAR for the same contract
nonconformance. According to the contractor’s internal CAR log provided by ACC-RI,
as of June 30, 2012, there were 21 internal CARs open for more than 3 months without
resolution, and 14 of those 21 internal CARs were open for more than 1 year. For
example:

    x   The contractor issued an internal CAR because there was no hazardous waste
        removal from RTC Helmand. The hazardous waste was being burned onsite. The
        internal CAR for hazardous waste was issued in December 2011 and remained
        open for 6 months.

    x   One internal CAR identified improper grounding procedures, damaged cables,
        and equipment and wiring that was damaged and led to unsafe conditions at RTC
        Kandahar. The internal CAR remained open for over a year. DCMA issued
        CARs for electrical safety issues at RTC Kandahar in August and November
        2012; however as of January 2013, all of the electrical issues at RTC Kandahar
        remained unresolved.




6
  CARs document contractual nonconformance. A level I CAR is a nonconformance that can be corrected
by the contractor “on the spot.” A level II CAR is a contract nonconformance that cannot be corrected “on
the spot” or is considered a systemic issue. A level III CAR is a serious contract nonconformity. The
contractor issued internal CARs when the contractor’s quality assurance personnel identified contract
nonconformance or other issues.

                                                   12

   x   A contract-wide internal CAR issued in February 2012 identified the contractor
       did not have a Government-approved automated accounting system to monitor
       inventory and spending. This internal CAR remained open for 4 months.

Furthermore, the COR at RTC Helmand stated the contractor had several internal CARs
that were open for more than 4 months related to electrical grounding and hazardous
material disposal procedures, and as a result, he could not recommend that DCMA issue a
CAR for the nonconformance. For example, the COR stated the contractor did not have
proper tools to ground electrical systems; however, he was unable to request that the
QAR issue a Government CAR for the grounding equipment because the contractor
issued an internal CAR. During our visit to RTC Helmand in May 2012, we observed
exposed wiring that, if not properly grounded, could put personnel and equipment at risk
(see Figure 1). DCMA personnel stated they had no formal way to require the contractor
to fix contract issues identified by the contractor because DCMA did not issue CARs
when the contractor had already issued an internal CAR. However, in July 2012, after
discussions with ACC-RI contracting personnel, DCMA officials issued a CAR against
the contractor’s quality control plan and internal CARs open for more than 30 days. At
that time, DCMA issued a CAR for the electrical grounding tools at RTC Helmand;
however, the CAR was not closed until January 2013. The Commander, DCMA-
Afghanistan, should direct the lead QAR to require the contractor to address all
outstanding CARs and internal CARs related to contract health and safety requirements
immediately and to address any new CARs or internal CARs related to contract health
and safety requirements within 30 days of identification.

                        Figure 1. Exposed Wiring at RTC Helmand




         Note: Red boxes indicate exposed cables. 

         Source: DoD Office of Inspector General. 





                                                13

Additionally, in August 2012, the contract specialist stated that ACC-RI contracting
personnel would follow up with DCMA monthly to ensure that the contractor addressed
internal CARs. In January 2013, the contract specialist stated that ACC-RI personnel
were still working with DCMA personnel to receive copies of all CARs issued for the
ANP training contract. The contracting officer at ACC-RI should coordinate with the
lead QAR to develop and implement a strategy to consistently review the contractor’s
internal CARs and take action on internal CARs that remain unresolved for more
than 30 days to address previously identified contract issues.

Communication Required Between Oversight Personnel,
Requirement Owners, and Contracting Office
DCMA officials did not coordinate with NTM-A/CSTC-A TPSO program management
personnel, requirements owners, or ACC-RI personnel when creating the audit checklists;
when updating the audit checklists as contract requirements changed; or when the CORs
or QARs completed the audit checklists. TPSO, as part of NTM-A/CSTC-A, provided
program management and coordinated contract requirements with the requirement
owners. Accordingly, DCMA personnel should
have coordinated and communicated with TPSO            The requirement owners were
and the NTM-A/CSTC-A requirement owners                 not provided information to
when developing and updating the audit checklists        measure the success of the
so that all requirements critical to the success of      contractor in training and
the ANP contract were included in the audit              equipping the ANP forces.
checklists. Additionally, DCMA personnel did not
provide TPSO personnel with completed COR audit checklists. Therefore, the
requirement owners were not provided information to measure the success of the
contractor in training and equipping the ANP forces.

Additionally, DCMA personnel did not coordinate oversight procedures with ACC-RI
personnel during the contracting process. The ACC-RI contracting officer stated that
based on the audit checklist instructions, the CORs were identifying and focusing on
minor nonconformance rather than reviewing whether the contractor was meeting the
contract requirements as a whole. The contracting officer stated for a contract like the
ANP training contract, using a quality assurance surveillance plan in conjunction with the
SOW would be a more appropriate oversight methodology. The lead QAR stated the
contracting officer at ACC-RI was responsible for developing the quality assurance
surveillance plan. Furthermore, the lead QAR stated he never received a quality
assurance surveillance plan, and therefore, the COR audit checklists were prepared solely
on the ANP contract SOW.

Federal Acquisition Regulation Subpart 46.4, “Government Contract Quality Assurance,”
states quality assurance surveillance plans should be prepared in coordination with the
SOW and should identify all work requiring surveillance and the type of surveillance.
The DoD COR Handbook states the requiring unit that drafted the SOW typically
develops the quality assurance surveillance plan that details how and when the
Government will survey, observe, test, sample, evaluate, and document contractor
performance. Furthermore, the Defense Federal Acquisition Regulation Supplement

                                           14

Subpart 246.4, “Government Contract Quality Assurance,” states the contracting officer
should prepare a quality assurance surveillance plan to facilitate assessment of contractor
performance. However, the contractor created a quality assurance surveillance plan when
the contract was awarded, and ACC-RI contracting personnel never updated the quality
assurance surveillance plan despite four SOW modifications. In addition, ACC-RI
contracting personnel, DCMA personnel, and the CORs did not use the contractor’s
quality assurance surveillance plan as a method of contractor oversight.

Furthermore, DCMA did not provide the contracting officer with the completed COR
audit checklists. Instead, DCMA provided the ACC-RI contracting officer with a
monthly roll-up report, which described the number of CARs outstanding and the number
of COR audit checklists received. However, the
roll-up report did not summarize which                     The DCMA roll-up report
nonconformances were level II or level III CARs,          did not provide the ACC-RI
did not identify sites where the contractor had            contracting officer with a
outstanding internal CARs, and did not identify sites       complete assessment of
where no oversight was being performed.                      contract performance.
Therefore, the DCMA roll-up report did not provide
the ACC-RI contracting officer with a complete assessment of contract performance.
Although the contracting officer delegated contract oversight to DCMA, the contracting
officer was ultimately responsible for the contract and should be informed of all contract
nonconformances to determine whether to take any contractual action.

The contracting officer, ACC-RI, should coordinate with the TPSO Program Manager,
and the Commander, DCMA-Afghanistan, to determine whether the current oversight
strategy is appropriate to oversee the contractor performance on the ANP contract and
modify the oversight strategy as required. Once ACC-RI, TPSO, and DCMA-
Afghanistan personnel agree on an appropriate oversight strategy, the contracting officer,
ACC-RI, should coordinate with the TPSO Program Manager and the lead QAR to
develop audit checklists or a quality assurance surveillance plan, or both, that includes all
contract requirements that are critical to the success of the ANP contract. In addition, the
contracting officer should coordinate with TPSO and DCMA-Afghanistan to update the
audit checklists or quality assurance surveillance plan as necessary when the ANP
contract SOW is modified.

Critical Quality Assurance Requirements
Must Be Implemented
DCMA personnel did not implement the quality assurance requirements for oversight in
Afghanistan that DCMA considered critical to mission success. Specifically, DCMA
officials did not implement the requirements discussed in the Theater Quality Plan when
implementing the oversight strategy for the ANP contract.




                                             15

The purpose of the Theater Quality Plan is to provide oversight, guidance, and direction
to DCMA personnel. The DCMA Theater Quality Plan states that documentation of
contractor conformance and nonconformance is key to sustaining desired contractor
performance.

However, the lead QAR and QAR assigned to the ANP contract did not create and update
adequate audit checklists in a timely manner, maintain consistent oversight at ANP
training sites, or require CORs to submit thorough and accurate audit checklists. The
Commander should require the current and future lead QAR and QARs for the ANP
training contract to comply with all Theater Quality Plan requirements to maintain
oversight of the ANP contract. Additionally, the Commander, DCMA-Afghanistan,
should determine whether the lead QAR and the QAR assigned to the ANP contract from
January 2012 through June 2012 performed their assigned duties in accordance with
DCMA criteria and provided sufficient oversight of the ANP training contract, and hold
them accountable for deficient performance as appropriate.

Conclusion
DCMA, NTM-A/CSTC-A, and ACC-RI personnel should create and execute an effective
oversight process. The objective of contract surveillance is to monitor contractor
performance to ensure that the services received are consistent with contract requirements
and received in a timely manner. To be effective, contract surveillance requires
appropriate and immediate onsite monitoring of the services being performed. The
effectiveness of contract surveillance depends on keeping the contracting officer
informed of deviations from the contractual requirements. If DCMA, NTM-A/CSTC-A,
and ACC-RI personnel cannot execute an effective quality assurance process, the Army
cannot determine whether the contractor fully delivered the services, worth $439 million,
included in the ANP contract. Additionally, the Army will not be able to determine the
effectiveness of contractor-provided training for the ANP, which could affect the ability
of Afghan National Security Forces in leading security operations beginning in 2014,
when the U.S. combat mission in Afghanistan is to end.

Recommendations, Management Comments, and
Our Response
A.1 We recommend that the Commander, Defense Contract Management
Agency-Afghanistan:

        a. Review the lead quality assurance representative’s and the quality
assurance representative’s performance related to oversight responsibilities for the
Afghan National Police training contract to determine whether they properly
managed contracting officer’s representatives, created and updated audit checklists
to reflect the requirements of the contract, and maintained oversight of the Afghan
National Police training contract in accordance with the Theater Quality Plan
requirements during the reporting period from January 2012 through June 2012
and, as appropriate, hold them accountable for deficient performance.


                                           16

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International, responding for the Commander,
DCMA-Afghanistan, agreed with our recommendation, stating that DCMA determined
that the appropriate actions to be taken were in process improvements, not personnel
actions. He also stated that DCMA-Afghanistan processes were not as efficient as
desired during the period in which the audit was performed, thereby making it difficult
for quality assurance personnel to fully comply with their oversight responsibilities. In
addition, the Acting Commander said that DCMA-Afghanistan has made process
improvements, which included restructuring oversight efforts, increasing oversight
checks on performed audits, and continuing assessment through internal controls reviews.

Our Response
Comments from the Acting Commander, DCMA-International were responsive, and no
additional comments are required.

       b. Direct the lead quality assurance representative and the quality assurance
representative for the Afghan National Police contract to:

               (1) Provide the contracting officer’s representatives with the
appropriate oversight documentation as it applies to the sites where the contracting
officer’s representatives are assigned, as required by the Defense Contract
Management Agency Theater Quality Plan and the Contracting Officer’s
Representative Management Guide.

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International agreed with our recommendation, stating
that DCMA-Afghanistan will perform oversight in accordance with DCMA quality
instructions and the DCMA COR Management Guide. He explained that the QAR and
Government technical product representatives are responsible for verifying that CORs
use the current checklists and that CORs possess a copy of the most recent SOW. The
Acting Commander added that QARs perform checklist verifications by reviewing COR-
submitted checklists before forwarding the audits up the DCMA-Afghanistan chain of
command. He also stated that product QARs ensure that QARs, Government technical
product representatives, and CORs receive the contractor’s personnel status reports to aid
in determining the current services performed by the contractor. The personnel status
reports identify the contractor personnel filling each required position as compared to the
most recent SOW and notices to proceed.

Our Response
Comments from the Acting Commander, DCMA-International were responsive, and no
additional comments are required.

           (2) Implement an oversight strategy for the contractor’s program
management office and the contract logistics warehouse.


                                            17

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International agreed with our recommendation, stating
that DCMA-Afghanistan incorporated the contractor’s program management office and
the logistics warehouse into the surveillance plan and has been regularly auditing the
activities at those locations since October 2012.

Our Response
Comments from the Acting Commander, DCMA-International were responsive, and no
additional comments are required.

               (3) In coordination with the Administrative Contracting Officer,
identify and fill contracting officer’s representative vacancies in a timely manner.

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International agreed with our recommendation, stating
that DCMA will identify COR vacancies to TPSO and IJC. He stated that
DCMA-Afghanistan currently has adequate COR coverage for the Afghan MoI and for
institutional training and mentoring requirements. The Acting Commander stated that
COR coverage is currently inadequate for the fielded mentors. He added that DCMA has
identified these shortfalls to TPSO and IJC and will appoint the required CORs when
they are properly nominated and identified to DCMA-Afghanistan.

Our Response
Comments from the Acting Commander, DCMA-International were responsive, and no
additional comments are required.

       c. Direct the lead quality assurance representative to require the contractor
to address all outstanding corrective action requests and internal corrective action
requests related to contract health and safety requirements immediately and to
address any new corrective action requests or internal corrective action requests
related to contract health and safety requirements within 30 days of identification.

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International agreed with our recommendation, stating
that as of April 30, 2013, the contractor had five open internal CARs and two of those
were related to health and safety requirements. He stated that DCMA-Afghanistan
regularly tracks internal CARs and monitors how the contractor addresses
nonconformances. The Acting Commander stated DCMA receives biweekly updates on
the internal CAR statuses and action plans to ensure issues are addressed in a timely
manner and any necessary procedures are put in place to prevent reoccurrence. He added
that DCMA-Afghanistan closely monitors items related to life, health, and safety. The
Acting Commander also stated that the contractor’s quality control plan requires
internally identified deficiencies to be corrected within 30 days of occurrence, and if the
contractor fails to do so, DCMA retains the right to issue a CAR on the contract.


                                            18

Our Response
Comments from the Acting Commander, DCMA-International were responsive, and no
additional comments are required.

A.2 We recommend that the Contracting Officer, Army Contracting
Command-Rock Island:

       a. Coordinate with the Combined Security Transition
Command-Afghanistan Training Program Support Office, Program Manager,
Afghan National Police training contract, and the Commander, Defense Contract
Management Agency-Afghanistan, to review the Afghan National Police training
contract oversight strategy, and:

              (1) Determine whether the current oversight strategy is appropriate
to oversee contractor performance on the Afghan National Police contract and
modify the oversight strategy as required.

                (2) Develop audit checklists or a quality assurance surveillance plan,
or both, that includes which statement of work and contract requirements are
critical to the success of the Afghan National Police contract. The Contracting
Officer, Army Contracting Command-Rock Island, should subsequently coordinate
with Training Program Support Office and Defense Contract Management Agency-
Afghanistan personnel to update the audit checklists or quality assurance
surveillance plan as necessary when the Afghan National Police contract statement
of work is modified.

Army Contracting Command Comments
The Commander, Army Contracting Command, responding for the Contracting Officer,
ACC-RI, agreed with our recommendation, stating that since the contract formally
transferred from Army Contracting Command-Aberdeen Proving Ground, ACC-RI has
been continuously working with TPSO and DCMA-Afghanistan to review and refine the
oversight strategy. She stated that ACC-RI determined that use of the audit checklists
instead of a quality assurance surveillance plan was adequate; however, she added that it
is vital that the checklists be regularly updated as the SOW is modified. The Commander
also stated that DCMA indicated that they must adhere to the Theater Quality Plan for
surveillance, and as a result, the lead QAR is responsible for updating the audit
checklists. In addition, she explained that ACC-RI has always provided DCMA-
Afghanistan with an updated SOW after every SOW change; she stated that further
discussions on the oversight strategy in March 2013 resulted in DCMA-Afghanistan
agreeing to update the audit checklists after every SOW change. The Commander
explained that ACC-RI added the lead QAR directly to the distribution of any SOW
changes to ensure that the audit checklists are updated expeditiously.

Our Response
Comments from the Commander, Army Contracting Command were responsive, and no
additional comments are required.
                                           19

      b. Coordinate with the lead quality assurance representative to develop and
implement a strategy to consistently review contractor internal corrective action
requests and take action on internal corrective action requests that are unresolved
for more than 30 days.

Army Contracting Command Comments
The Commander, Army Contracting Command agreed with our recommendation, stating
that ACC-RI has been coordinating with DCMA-Afghanistan on this issue for nearly a
year, and the situation has improved. She stated that DCMA-Afghanistan agreed to issue
CARs for the individual internal CARs that go unresolved or have slippage past 30 days.
In addition, the Commander stated that ACC-RI has been coordinating with DCMA-
Afghanistan to ensure copies of all CARs are provided to the contracting office, and as of
March 27, 2013, there were seven open internal CARs, none of which had gone past the
corrective action plan due date. She added that ACC-RI will continue to follow up with
DCMA-Afghanistan monthly to ensure that any CARs or internal CARs are being
properly addressed and the contractor is held accountable. The Commander explained
that, to complete the monthly review, ACC-RI will add it to the agenda for biweekly
Government teleconferences held between ACC-RI, TPSO, and DCMA-Afghanistan, and
will request that DCMA-Afghanistan submit an updated CAR and internal CAR tracking
document prior to the meeting.

Our Response
Comments from the Commander, Army Contracting Command were responsive, and no
additional comments are required.




                                           20

Finding B. Incomplete Audit Checklists
Hinder Contractor Oversight
The CORs for the ANP contract did not conduct effective contractor surveillance.
Specifically, the CORs did not always complete the required number of audit checklists
based on assigned risk levels. When the CORs documented surveillance on the audit
checklists, they did not always provide adequate or consistent information on the audit
checklists to communicate their oversight results, complete the entire audit checklist, or
properly document contractor noncompliance for 147 of 166 audit checklists we
reviewed. This occurred because the QAR did not consistently review the COR audit
checklists for compliance with the Theater Quality Plan, provide the CORs with feedback
on the completed audit checklists, or properly train the CORs on their oversight
responsibilities. As a result, DCMA officials could not verify that the Army fully
received approximately $20.9 million per month of services paid under the ANP contract.

Audit Checklists Were Not Completed in Accordance
With Guidance
The CORs did not provide adequate contractor surveillance for the ANP contract.
Specifically, the CORs did not always complete their DCMA audit checklists in
accordance with the guidance in the DCMA Theater Quality Plan or the DCMA COR
Management Guide, as required for 147 of 166 of the audit checklists we reviewed.

Required Number of Audit Checklists Not Completed
The CORs did not always complete the required number of audit checklists based on
assigned risk levels. The initial risk analysis for the ANP contract assessed basic life
support services, food service operations, and training and mentoring services as a
moderate risk, and force protection services as a high risk. According to the DCMA
Theater Quality Plan, the COR should conduct a moderate-risk service examination once
a month and a high-risk service examination twice a month. If the COR was not
available to conduct an audit, the QAR was responsible.

The DCMA Theater Quality Plan states if travel to a site was restricted, the QAR must
perform a desk audit7 or an alibi audit8 if an onsite audit could not be performed.
However, the Theater Quality Plan includes conflicting guidance because an alibi audit
meant that the COR or QAR did not conduct an audit even though the Theater Quality
Plan required at least one audit per month for moderate-risk services and two audits per
month for high-risk services.



7
  The DCMA Theater Quality Plan explains that desk audits are “document only” audits and are authorized
for services; however, an onsite examination should always be attempted.
8
  The DCMA Theater Quality Plan states if the QAR or COR is unable to perform an audit, the QAR must
submit an alibi audit. The Plan also states an alibi audit is an explanation of why an actual audit was not
conducted and that alibi audits are annotated on the audit checklist coversheet with an explanation in the
audit summary.

                                                    21

On May 14, 2012, the lead QAR stated DCMA would no longer conduct alibi audits.
Additionally, the DCMA International Contingency Operations Planner stated on January
28, 2013 that DCMA had updated the audit process and no longer used alibi audits.
However, during that period, DCMA did not provide an updated Theater Quality Plan
and therefore, the QARs were still allowed to submit alibi audits. According to DCMA
records, the CORs assigned to the 12 ANP training sites where we reviewed audit
checklists completed 166 of the 287 required audit checklists from January 2012 through
June 2012. (See Appendix B for the site audit checklists we reviewed and how many
audit checklists the CORs or the QAR completed at each site.)

For example, from January to June 2012 the CORs assigned to RTC Konduz completed
15 of the 36 required audit checklists. DCMA did not have a COR appointed for
February 2012 and the majority of March 2012. As a result, DCMA did not conduct
oversight as required by the Theater Quality Plan. The QAR turned in 11 alibi audit
checklists during those months, indicating there was no COR at the site, and stated since
the “GTPRs [Government technical product representatives]9 located in Kabul are not
approved for travel outside of the RC-C [Regional Command-Capital]…therefore, the
audit was not performed.” However, one of the 11 alibi audits completed during those
months indicated that “a new COR did not arrive on site until mid-Mar but performed the
first FPS [force protection services] audit…the COR did not submit a second FPS audit
for Mar. No valid excuse was given.” In other instances, the CORs assigned to
RTC Konduz did not provide the QAR with the required number of audit checklists
because the CORs did not complete the two required force protection service audit
checklists each month. Additionally, according to DCMA’s records, the CORs did not
always complete the required food support operation, basic life support, or trainer/mentor
service audit checklist each month.

In another example, from January through June 2012, the CORs assigned to CTC Kabul
completed 12 of 30 required audit checklists. DCMA did not have a COR assigned to the
site in March and April 2012, and no oversight was conducted. The QAR submitted
eight alibi audits for March and April 2012, indicating there was no COR and that the
“GTPRs [Government technical product representatives] located in Kabul were
scheduled to visit the site in order to perform the required audits…but due to security
issues within the area the GTPRs were unable to travel to this site.” The QARs did not
perform an alibi audit for the command mentor checklists during those months. The lead
QAR explained the command mentor checklist was not completed because of an error on
DCMA’s part. Additionally, according to DCMA’s records, the CORs did not always
complete the two required force protection service audit checklists or the basic life
support, and trainer/mentor service audit checklists each month as required.

The DCMA Theater Quality Plan states implementation of a successful surveillance
strategy depends on the level of risk identified and the measures applied to mitigate


9
 Based on information in the Theater Quality Plan and statements made by DCMA officials, a QAR and a
Government technical product representative perform the same job functions. Therefore, we use the term
QAR throughout the report for both.

                                                  22

potential impact. The QAR and CORs were required to complete the audit checklists
based on the assigned risk levels; however, they did not follow DCMA’s surveillance
strategy when they did not perform the required audit checklists each month. The
Commander, DCMA-Afghanistan, should: update the Theater Quality Plan and remove
the option of conducting an alibi audit; require the QAR to validate that each COR is
aware of the risk rating for the services provided at their site locations and are familiar
with the corresponding audit checklist requirements, including the number of audits
required each month; and validate that the QAR completes the required audit checklist
when a COR is not available, as required by the DCMA Theater Quality Plan.

COR Comments Should Support What Was Reviewed
The CORs for the ANP contract did not always provide adequate or consistent
information on the audit checklists to communicate their oversight results. The DCMA
Theater Quality Plan states that the CORs are to document the audit checklist questions
by marking “yes” or “no,” and provide comments detailing what was evaluated, where,
and in what manner. If the COR marks “no,” the DCMA Theater Quality Plan states that
the comments are to describe the nonconformance. The Plan states that if the COR
determines it necessary to mark an item as “not-observed” or “not applicable,” the item
requires a comment explaining the reason why the COR made that determination. The
Theater Quality Plan also states that there will be instances where some audit checklist
questions do not warrant this level of detail, but the COR should not consider this the
rule. However, the CORs did not always comply with the guidance in the DCMA
Theater Quality Plan.

In a February 2012 trainer/mentor audit checklist, the MoI COR responded “yes” to 20
percent of the audit checklist questions, indicating that the contractor complied with the
requirements. However, for all of the comments where the COR responded “yes,” the
comment either did not support the “yes” response or provide details of how the COR
determined the contractor complied with the requirement. For example, the COR
responded “yes” to the question “does the contractor provide one mentor…to develop the
ANP/MoI Legal Affairs to provide timely, effective legal advice and services throughout
MoI and the ANP.” The COR stated in his comments that the contractor-provided
mentor did not assist in all the duties as defined in the SOW for the month of February,
but it was expected that the mentor would meet the provision in the upcoming month.
Based on the CORs comments and DCMA guidance, the COR should have answered
“no.” The COR also responded “yes” to “does the contractor provide a mentor…to work
all aspects of developing policy and strategy for salary and payroll.” However, the COR
stated in his comments that the mentor was newly assigned and working toward
understanding the pay system and building relationships.

In a May 2012 basic life support audit checklist, the COR at RTC Kandahar responded
“yes” to a question that asked, “does the contractor police all areas to ensure insects…are
removed and to prevent infesting of any site and facility.” The comment the COR
provided stated that “the COR inspected all traps and found that 60 percent were
ineffective, and 20 percent of the adhesive traps were dried out and a dead rodent was


                                             23

found in one.” Accordingly, the contractor did not meet the requirement as stated in the
SOW, and the COR should have answered “no.”

In a June 2012 food services audit checklist, a COR responded “yes” to the question
“verify that the contractor maintains a 21 day supply of non-perishable foods.” The COR
marked that the contractor complied with the requirement and stated that the contractor
“has a 21 day supply available and being replace [sic] by date to ensure freshness on
every delivery.” However, the comment did not detail how the COR verified that the
contractor complied with the requirement.

CORs Must Complete Audit Checklists to Provide Useful
Oversight Information
The MoI COR for the ANP contract did not always complete the entire audit checklist for
assigned sites each month. For example, for the
February trainer/mentor audit checklist, the MoI          …the COR indicated because
COR marked more than 70 percent of the audit                 of a reorganization, and
checklist questions as “not observed.” The COR                because he was newly
explained that because of travel restrictions set by     assigned, he could not identify
DCMA, he relied on points of contact who were the          his points of contact for the
requirements owners of the provided services                SOW requirements or the
located at the sites to provide him feedback on the         points of contact had not
contractor’s performance. Furthermore, the COR             responded to his requests…
indicated because of a reorganization, and because
he was newly assigned, he could not identify his points of contact for the SOW
requirements or the points of contact had not responded to his requests for information.
Additionally, the COR stated he was relying on the QAR to assist him in obtaining the
points of contact he needed to complete his audit checklists; however, the QAR had not
assisted the COR in locating the points of contact.

The COR was able to identify and contact more of the points of contact at the MoI from
April to June, which allowed him to complete more of the audit checklists requirements.
However, the MoI COR still marked “not observed” for about 28 percent of the audit
checklist questions in April, 26 percent in May, and 26 percent in June because of the
challenges he faced with locating and getting a response from the points of contact for the
requirements.

The DCMA Theater Quality Plan states the audit checklists are written to cover all
pertinent requirements as identified in the SOW in order to hold the contractor
responsible for meeting contractual obligations. When the COR for the ANP contract
does not observe a substantial amount of the requirements performed by the contractor,
DCMA has limited assurance that the contractor successfully performed the requirements
pertinent to the ANP contract.




                                            24

CORs Must Document Noncompliance With
Contract Requirements
The CORs for the ANP contract did not always properly document noncompliance in the
audit checklists we reviewed. The DCMA Theater Quality Plan states that CORs are
required to enter a description of all nonconformances identified during the audit in the
“Non-conformance Against Contract Requirements” section of the audit checklist. If the
contractor already issued an internal CAR for the identified nonconformance, the DCMA
Theater Quality Plan stated the COR should appropriately document the internal CAR
number in the audit checklist.

For June 2012, the COR for the MoI                     For June 2012, the COR for the
inappropriately reported the contractor                MoI inappropriately reported the
complied with a requirement in the                        contractor complied with a
trainer/mentor audit checklist, although his          requirement in the trainer/mentor
comments on the audit checklist indicated the            audit checklist, although his
contractor was not in compliance. The COR’s            comments on the audit checklist
comments noted the contractor provided one             indicated the contractor was not
mentor; however, the individual went on leave                   in compliance.
and indicated his intent to take a civil service
position and not return to the team as an advisor. Additionally, the COR’s comment
noted at the time, the contractor had not officially apprised the Government of the
individual’s status or whether they intended to fill the position with another qualified
person. The COR did not document a nonconformance on the audit checklist, as
required, to alert the QAR to review the nonconformance and issue a CAR, if necessary.

In an April 2012 basic life support audit checklist, a COR documented the contractor
“failed to test Waste Water Treatment Plant” because no testing kit was onsite. The COR
additionally stated he identified failed equipment and the contractor was still waiting for
parts to arrive to fix the equipment. The COR appropriately responded “no” on the audit
checklist; however, the COR did not properly document a nonconformance on the audit
checklist in the “Non-conformance Against Contract Requirements” section, as required
by the DCMA Theater Quality Plan, to alert the QAR to review the nonconformance and
issue a CAR, if necessary.

If the COR does not properly document the noncompliance identified in the audit
checklist, DCMA will not know to take corrective action against the contractor.

Inadequate Review and Lack of Feedback
on COR Audit Checklists
The QARs did not always review the COR audit checklists for compliance with the
DCMA Theater Quality Plan or provide the CORs with feedback on the completed audit
checklists. The Theater Quality Plan states because of the many outside requests for
copies of DCMA audit checklists, the level of detail and information provided in the
audit checklists is critical. The Theater Quality Plan requires the QARs to review all
COR audit checklists for completeness and forward the audit checklist to the appropriate

                                            25

DCMA central repository within 3 days of the audit checklist review. If the QAR
identifies errors in the audit checklist, the DCMA COR Management Guide states the
QAR should return the audit checklist to the COR for corrections. However, 5 of the
10 CORs we interviewed explained they did not receive feedback from the QAR after
submitting their audit checklists.

The DCMA COR Management Guide states the CORs are a critical part of the DCMA
oversight strategy. The QARs were responsible for mentoring the CORs and evaluating
and approving COR audit checklists to ensure DCMA quality standards were met.
Therefore, if the QARs did not properly review the COR audit checklists or request
CORs make corrections to audit checklists based on omissions or errors, QARs did not
comply with the DCMA oversight strategy and limited their ability to rely on the CORs
to provide adequate oversight of the ANP contract. The Commander,
DCMA-Afghanistan, should establish a control process to verify that the QARs properly
review all COR audit checklists for completeness and return the audit checklists to the
CORs, with feedback, as required by the DCMA COR Management Guide, if the QARs
finds that the CORs did not do the following: provide comments that support the response
given, complete each section of the audit checklists required for the site, or properly
document when the contractor did not comply with the contract requirements.

Training CORs to Monitor Contractor Performance
DCMA personnel did not properly train the CORs on their oversight responsibilities. The
DCMA COR Management Guide states that the COR training process consists of two
phases. Phase I of the training process includes the formal oversight training required.
While the CORs adequately completed the Phase I training, DCMA personnel did not
implement a Phase II training process that adequately prepared the CORs for their
primary role of monitoring contractor performance for the ANP contract.

The DCMA COR Management Guide states Phase II of the COR training includes a
DCMA orientation, an introduction to DCMA oversight policies and procedures as
outlined in the DCMA Theater Quality Plan, and
specific training with regard to the contract to         The DCMA training was
which the nominee may be assigned. The DCMA            not updated to reference the
COR Management Guide stated the contract-              current version of the SOW
specific training should include a review of the        that the CORs should have
important requirements in the SOW; the roles and       used  in conjunction with the
responsibilities of all the individuals involved              audit checklist.
with contract oversight, including the ACO, the QAR, and the COR; and a review of
previous contractor performance on the effort, if any. However, the COR Phase II
training provided by DCMA was not specific to the ANP contract. The DCMA training
was not updated to reference the current version of the SOW that the CORs should have
used in conjunction with the audit checklist. Additionally, four of the nine CORs we




                                          26

interviewed10 did not have the opportunity to review the previous COR audit checklists
before starting their oversight duties at their assigned sites. For example, one COR was
only able to locate two audit checklists from the last year completed by the previous COR
assigned to his site. The COR stated he requested all the completed audit checklists from
the QAR for his site; however, he never received them.

The DCMA COR Management Guide also requires that the COR nominee conduct a
joint validation audit with the QAR using a DCMA audit checklist to ensure the nominee
fully understands the audit requirements and can satisfactorily perform oversight for the
contract before being appointed. The DCMA COR Management Guide states that when
the QAR cannot travel to the site for the joint audit, the nominee is to perform a solo
audit and submit the audit checklist to the QAR for review and feedback. However, the
QAR did not always require the COR nominees to perform a validation audit before
being appointed, review the validation audits submitted by the COR nominees, and
provide feedback to the CORs. For example, DCMA appointed one COR almost a month
before she completed the validation audit. When asked why DCMA appointed the COR
before she completed the validation audit, the QAR stated this occurred because the COR
had previous experience and he could not travel to the site to perform the audit with the
COR. The QAR stated that rather than not having a COR appointed for the month, he
decided to forgo the validation audit.

In February 2012, the COR for the MoI performed a validation audit using a
trainer/mentor family response unit audit checklist. For the question “do the contract
mentors maintain a liaison…to ensure that appropriate personnel assignments are made to
the FRUs [family response units],” the COR documented that the point of contact stated
“they complete the job, but had no additional comments in this area.” The COR marked
“yes,” indicating the contractor was in compliance; however, the comment provided did
not comply with the requirements in the DCMA Theater Quality Plan and describe how
the contractor complied with this requirement. The COR put the same comment in 10 out
of 24 questions on the checklist and marked “yes” for each question. The QAR did not
review the COR’s audit checklists and provide him feedback or have the COR make any
changes to his validation audit checklist before the ACO formally appointed him as COR.

The DCMA Theater Quality Plan states the COR should add technical expertise and
serve as another set of eyes to improve and increase contractor oversight. Additionally,
the Theater Quality Plan states that the CORs enable DCMA to better serve the
warfighter at a theater-wide level as they increase DCMA’s coverage and ability to
oversee the contractor. Therefore, DCMA must properly train the CORs, as required by
the DCMA COR Management Guide, so they are prepared to help DCMA serve the
warfighter and improve and increase contractor oversight. The Commander, DCMA-
Afghanistan, should establish a quality control process to verify that the DCMA QARs
provide contract-specific Phase II training to all CORs assigned to the ANP contract in
accordance with the DCMA Theater Quality Plan and COR Management Guide, before


10
  We interviewed 10 CORs; however, at one site, no COR was assigned previously, and therefore, no
previous COR audit checklists existed.

                                                 27

sending the CORs to their assigned sites. Additionally, the Commander, DCMA-
Afghanistan should verify that the QARs provide the CORs with the files of the previous
CORs to review and fully understand the specific services the contractor performs at the
assigned site.

Conclusion
The CORs did not perform adequate oversight at their assigned sites or adequately
complete 147 of the 166 DCMA audit checklists we reviewed. If DCMA personnel
properly trained the CORs on their oversight responsibilities, or consistently reviewed the
COR audit checklists and provided the CORs feedback on the completed audit checklists,
the CORs would have been better prepared to perform their oversight responsibilities.
Without adequate COR oversight, DCMA had limited assurance the Army received the
full value for approximately $20.9 million per month in services paid for under the ANP
contract.

Recommendations, Management Comments, and
Our Response
B.1. We recommend that the Commander, Defense Contract Management Agency-
Afghanistan, update the Defense Contract Management Agency Theater Quality
Plan and remove the option for conducting an alibi audit.

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International, responding for the Commander,
DCMA-Afghanistan, agreed with our recommendation, stating that although Afghanistan
is a dangerous warzone environment with communication and transportation difficulties,
every effort is made to complete audits as scheduled. However, he stated there may be
instances when onsite desk audits cannot be performed. These instances will be recorded
as an audit not performed and include documentation as to why the audit could not be
performed and the efforts made to accomplish it.

Our Response
Comments from the Acting Commander, DCMA-International, were partially responsive.
The Theater Quality Plan states, "an alibi audit is an explanation of why an actual audit
was not conducted. Alibi audits are submitted on the audit coversheet with an
explanation documented in the audit summary block." However, during our review of
audit checklists, if an audit was not completed, supporting documentation or an
explanation of what efforts were taken to perform the audit was not provided. We
request the Commander, DCMA-Afghanistan provide an explanation whether the
Theater Quality Plan will be updated to clearly state that when an audit is not performed
supporting documentation will be provided, specify the efforts made to accomplish the
audit, and to include this information in the audit checklist.

B.2. We recommend that the Commander, Defense Contract Management Agency-
Afghanistan, establish a quality control process to verify that the Defense Contract
Management Agency quality assurance representatives:

                                            28

       a. Validate that each contracting officer’s representative is aware of the risk
rating for the services provided at the site locations and knows the corresponding
audit checklist requirements, including the number of audits required to be
completed each month.

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International agreed with our recommendation, stating
that existing processes were in place to satisfy the recommendation; however, they were
not adhered to. He explained that as of April 30, 2013, QARs were sending the CORs
updated audit checklists and the SOW, and providing guidance to the CORs regarding
risk ratings and the number of audits to be performed. The Acting Commander added
that there is a new DCMA-Afghanistan service tracker database that provides an
exportable surveillance plan that is distributed to the quality assurance personnel and the
CORs monthly or whenever there is a change to the surveillance plan. He stated that the
surveillance plans identify the audits required for each site and service, and the current
risk rating. In addition, the Acting Commander said that DCMA-Afghanistan provides
guidance on the audit checklists during the COR training and through regular COR
feedback. He stated that QARs will grade one audit checklist from each COR monthly
and provide written feedback to the CORs and their supervisors. Additionally, the Acting
Commander stated that the QAR or the Government technical product representatives
will conduct quarterly validation audits with each assigned COR, which will include a
mix of in-person and over the phone reviews.

Our Response
Comments from the Acting Commander, DCMA-International were responsive, and no
additional comments are required.

       b. Complete the required audit checklist when the contracting officer’s
representative is not available, in accordance with the Defense Contract
Management Agency Theater Quality Plan.

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International agreed with our recommendation, stating
that the QAR and Government technical product representative personnel make every
effort to conduct audits when a COR is not available; however, based on operational
circumstances this is not always practical. He added that in the event that a QAR or
Government technical product representative cannot perform a required audit or a desk
audit, they will complete and submit an audit not performed document.

Our Response
Comments from the Acting Commander, DCMA-International were responsive, and no
additional comments are required. Once the Commander, DCMA-Afghanistan responds
to Recommendation B.1, an audit not performed will include information regarding why



                                            29

an audit could not be completed. Therefore, the Acting Commander’s response is
adequate for this recommendation.

       c. Review all contracting officer’s representatives audit checklists for
completeness and return the audit checklists to the contracting officer’s
representatives, with feedback, as required by the Defense Contract Management
Agency Contracting Officer’s Representative Management Guide, if the quality
assurance representatives finds that the contracting officer’s representative did not
do the following:
              (1) Provide comments that support the response given to the question.

              (2) Complete each section of the audit checklist required for the site.

              (3) Properly document when the contractor did not comply with the
contract requirements.

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International, agreed with our recommendation, stating
that DCMA is enhancing the process for quality assurance oversight of the TPSO
contracts to improve assessment of the COR completed audit checklists. He explained
that these enhancements included increasing reviews, a centralization of oversight
activities at Camp Eggers, Afghanistan, and random sampling by tertiary command
QARs.

Our Response
Comments from the Acting Commander, DCMA-International were responsive, and no
additional comments are required.

        d. Provide contract-specific Phase II training to all contracting officer’s
representatives assigned to the Afghan National Police contract in accordance with
the Defense Contract Management Agency Theater Quality Plan and Contracting
Officer’s Representatives Management Guide before sending the contracting
officer’s representatives to their assigned sites.

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International agreed with our recommendation, stating
that contract-specific Phase II training is a DCMA-Afghanistan requirement instituted
from experience gained in administering service contracts. He stated that DCMA-
Afghanistan makes every effort to provide contract-specific Phase II training to all CORs
whenever possible. He explained that there were two primary contributing factors to
many of the CORs on the contract not receiving adequate Phase II training during the
period covered by the audit report. The Acting Commander said that the first
contributing factor was that DCMA-Afghanistan personnel often lacked access to the
performance sites due to operational risks and a lack of available transportation. He
stated that the second contributing factor was that DCMA-Afghanistan personnel had
limited access to the CORs responsible for performing the direct onsite oversight efforts

                                           30

due to the operational risks associated with transportation. The Acting Commander also
stated that the two contributing factors limited DCMA’s ability to accomplish effective
face-to-face Phase II training, and DCMA was limited in those cases to perform training
via e-mail exchanges and telephone conversations.

Our Response
Comments from the Acting Commander, DCMA-International, were partially responsive.
We recognize the challenges with providing CORs traveling to remote sites face-to-face
Phase II training; however, the Acting Commander did not provide information in his
response regarding how these challenges would be overcome to provide all CORs with
the Phase II training. Although Phase II training is a requirement specific to
DCMA-Afghanistan, and not required by DoD as a whole, it was required by DCMA’s
COR Management Guide and the Theater Quality Plan. Phase II training, as defined by
the COR Management Guide, would better prepare the CORs by requiring the CORs to
receive contract documentation and contract-specific guidance during the training. Some
of the CORs on the ANP contract did not have quality assurance backgrounds, did not
receive copies of the prior COR audit checklists, and did not receive contract-specific
oversight guidance. Phase II training would assist CORs in understanding their oversight
duties and result in greater quality assurance oversight for the ANP contract. We request
the Commander, DCMA-Afghanistan, provide additional comments in response to the
final report that state how DCMA-Afghanistan will fully comply with Phase II training
requirements and provide the training to all CORs prior to the CORs arriving at their
assigned sites and beginning their COR duties.

       e. Provide the contracting officer’s representatives the files of the previous
contracting officer’s representatives to review and fully understand the specific
services the contractor performs at the assigned site.

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International agreed with our recommendation, stating
that as directed in the COR appointment letter, it is the responsibility of the outgoing
COR to provide a continuity book to the incoming COR in accordance with the Theater
Quality Plan. He added that it is the responsibility of the previous COR, their supervisor,
and the CORs’ assigned unit to ensure that this exchange occurs. The Acting
Commander explained that the files are frequently located in offices at sites that the
DCMA-Afghanistan quality assurance personnel have limited or no capability to visit.
He also stated that if the previous COR’s files become lost or destroyed, DCMA-
Afghanistan will provide the new CORs with all applicable contract documents, training
material, audit checklists, and audit reports completed by the previous CORs.

Our Response
Comments from the Acting Commander, DCMA-International were responsive, and no
additional comments are required.




                                            31

Finding C. Improved Oversight of the
Fielded Mentors Needed
DCMA and IJC11 personnel did not perform adequate oversight of the fielded mentors12
for the ANP contract. Specifically, DCMA and IJC personnel did not consistently
nominate and appoint CORs for fielded mentor oversight and the CORs did not
adequately complete DCMA audit checklists. This occurred because DCMA and
IJC personnel did not have a strategy for oversight of the fielded mentors adequate to
overcome the challenges in performing these services in remote and dangerous locations.
Additionally, DCMA personnel did not always train fielded mentor CORs and review
and follow up on audit checklists received from CORs. As a result, the Commanders for
DCMA and IJC had limited assurance the Army received contracted fielded mentor
services for the Afghan National Civil Order Police (ANCOP), Afghan Uniform Police,
and Afghan Border Patrol in remote and isolated headquarters, regional, provincial, and
district locations throughout Afghanistan.

COR Nomination and Appointment
DCMA and IJC officials did not consistently nominate and appoint CORs for fielded
mentor oversight. DCMA and IJC established a strategy to embed 22 IJC fielded mentor
CORs with the 22 fielded mentor supervisors in Afghanistan. DCMA relied on
IJC officials to obtain fielded mentor COR nominations in accordance with the DCMA
COR Management Guide. The DCMA COR Management Guide requires QARs to train
and mentor the prospective COR to ensure the nominee fully understands the audit
requirements and can satisfactorily perform oversight for the contract. The DCMA COR
Management Guide further requires the ACO to appoint the COR once the nominee
satisfies all COR requirements.

An IJC CJ4 Logistics Officer served as the lead official responsible for forwarding
fielded mentor COR nominations to the appropriate QARs to begin the appointment
process and ensure IJC COR coverage was adequate for the fielded mentors. The
Logistics Officer was responsible for overseeing regional command officials within the
IJC area of responsibility. (Appendix C provides an overview of the IJC fielded mentor
regions.) The Logistics Officer required regional command officials to track COR billets
and verify that the IJC fielded mentor COR coverage was adequate in their region.




11
   IJC was the requirements owner and was responsible for fielded mentor oversight independent of the
CSTC-A command for the ANP contract. DCMA and IJC implemented a COR Strategy for IJC CORs
performing oversight for fielded mentors throughout Afghanistan.
12
   Fielded mentors assigned to IJC were contractors who conducted training and mentoring operations in
the field. The fielded mentors were under the operational control of military components and security
forces who served as police mentoring teams. Fielded mentors lived, slept, and ate with their military
counterparts in remote areas throughout Afghanistan.

                                                   32

IJC COR Nominations
IJC did not consistently nominate CORs for fielded mentor oversight. Specifically, the
Regional Command (RC)-Southwest and RC-East officials did not have consistent
strategies for nominating CORs on the ANP contract.

The RC-Southwest official outlined a process to identify all fielded mentor locations and
nominate IJC personnel to provide oversight of all fielded mentors within his region.
Specifically, the RC-Southwest official issued an RC-Southwest Fragmentary Order that
required all units within the region who worked with fielded mentors to provide the
RC-Southwest official with fielded mentor COR nominations by specific dates. The
DCMA and IJC COR strategy allotted three RC-Southwest fielded mentor CORs for the
RC-Southwest region. However, the RC-Southwest official stated fielded mentors
operated at 13 sites, and he expected IJC personnel at those sites to respond back to the
RC-Southwest Fragmentary Order by submitting one fielded mentor COR nomination for
each site. In doing so, the RC-Southwest official established a process resulting in
13 CORs for the region when the oversight strategy only allocated 3 fielded mentor
CORs.

Conversely, the RC-East official did not have        The RC-East official did not verify
an adequate strategy in place to identify new           whether fielded mentor COR
IJC fielded mentor COR nominations. The                 coverage was adequate in his
RC-East official did not verify whether fielded          region and did not have an
mentor COR coverage was adequate in his             understanding of what locations the
region and did not have an understanding of         fielded mentor COR billets covered.
what locations the fielded mentor COR billets
covered. The RC-East official stated he was responsible for eight fielded mentor CORs
within the RC-East region according to the DCMA and IJC fielded mentor COR strategy;
however, the RC-East official relied solely on the outgoing fielded mentor CORs to
identify a replacement COR and did not know what ANP contract areas were covered in
his region. As a result, IJC had gaps in fielded mentor oversight within the RC-East
region and both RC-East and RC-Southwest regions did not have consistent strategies in
place to provide adequate oversight.

DCMA COR Appointments
DCMA officials did not consistently appoint CORs for fielded mentor oversight. DCMA
officials stated once IJC personnel provided COR nominations, the ACO reviewed the
COR nomination letter and supporting documentation and verified the nominated CORs
completed DCMA-specific training to meet the COR requirements. The ACO stated the
QARs were responsible for providing the nominated CORs with DCMA-specific
training, and the ACO would draft and sign an appointment letter once all COR
requirements were complete.

The ACO generally appointed fielded mentor CORs in accordance with the DCMA and
IJC strategy for fielded mentor services. However, the RC-Southwest official stated
some IJC nominated fielded mentor CORs did not complete the DCMA-specific COR
training, resulting in the ACO’s not appointing those nominated personnel for the

                                           33

contract. However, personnel nominated by RC-Southwest still performed oversight of
the fielded mentors. We determined that 20 IJC personnel in RC-Southwest completed
audit checklists from August 2011 through June 2012, only one of whom the ACO
appointed as a COR for the contract. The ACO appointed the fielded mentor COR
approximately two months after his nomination by IJC personnel. The COR only
performed official fielded mentor oversight duties during the last 2 months of his
deployment. Since the ACO only appointed one of the 20 IJC personnel who conducted
oversight for the RC-Southwest region as a COR, DCMA officials had limited awareness
of RC-Southwest oversight efforts. Appendix D illustrates the number of audit checklists
completed by the personnel involved in RC-Southwest’s oversight, and the timeframes
and nomination and appointment status.

The DCMA COR Management Guide outlines the nomination, training, and appointment
process for CORs; however, it provides no guidance on how the requiring activity should
work with DCMA officials to nominate prospective CORs and does not outline how
DCMA officials should work with the requiring activity to train and appoint CORs.
Without properly trained and appointed CORs performing oversight, DCMA had limited
assurance that IJC personnel understood the audit checklist requirements and could
satisfactorily perform oversight of the contract.

Fielded Mentor CORs Completion of Audit Checklists
IJC fielded mentor CORs did not adequately complete DCMA audit checklists in
accordance with the DCMA Theater Quality Plan. The DCMA Theater Quality Plan
states audit checklists are written to cover all pertinent requirements as identified in the
SOW to determine whether the contractor met its contractual obligations. Additionally,
the DCMA Theater Quality Plan outlines the requirements for adequate responses to
questions in audit checklists.

RC-Capital Audit Checklists
DCMA officials provided three of the six required audit checklists from January through
June 2012 for the RC-Capital. However, the three audit checklists the RC-Capital fielded
mentor COR completed did not comply with the DCMA Theater Quality Plan. For
example, in the May 2012 checklist, one question in the audit checklist states,
               Within the first six months, did the mentor train the Headquarters Personnel or
               Administration Officer or his designated representative to develop a Personnel
               Qualification system in conjunction with ANCOP Headquarters and Regional
               Headquarters, which will be the basis for tracking police officer qualifications, and
               proficiency?

The fielded mentor COR responded to the requirement with a “not applicable” and
provided a comment stating, “Not sure what this is. But am assuming the ANCOP are
doing it. This is not something we have done.” The DCMA Theater Quality Plan
requires that a “not applicable” response explain the reason why the requirement was not
applicable. The fielded mentor COR did not provide a reason why the requirement was
not applicable; however, he indicated that he did not know what the requirement was, and
he did not determine whether the contractor was performing the required service.

                                                  34

RC-East Audit Checklists
DCMA officials provided four of the six required audit checklists from January through
June 2012 for one of the fielded mentor CORs at RC-East. The RC-East fielded mentor
COR, who was assigned to the Gardez region, completed three of the six checklists13;
however, all three audit checklists were inadequate. The Gardez fielded mentor COR did
not function in an oversight role for the checklist questions the QAR assigned him to
complete. Instead, the Gardez fielded mentor COR collected information directly from
the contractor to answer the questions. For example, in the April 2012 checklist, the
COR stated that he would send the next month’s          The Gardez fielded mentor COR
audit checklist to a contractor supervisor and           did not independently validate
have the contractor gather details of the fielded         the contractor performed the
mentors he supervised. On May 19, 2012, a                 technical requirements of the
contractor supervisor provided answers to audit         contract in accordance with the
checklist questions via e-mail to the Gardez           SOW for fielded mentor services.
region COR. As a result, the Gardez fielded
mentor COR did not independently validate the contractor performed the technical
requirements of the contract in accordance with the SOW for fielded mentor services.

One Task Force Spartan fielded mentor COR14 stated he was responsible for the
oversight of 41 fielded mentors in 16 locations in the RC-East region. The Task Force
Spartan fielded mentor CORs completed all six of the required audit checklists from
January through June 2012; however, DCMA officials only maintained three of the six
checklists in the central repository. The Task Force Spartan fielded mentor CORs did not
perform the oversight to complete the audit checklists, but collected monthly
performance assessment reports from IJC military personnel who worked directly with
fielded mentors within their area of responsibility. The fielded mentor CORs compiled
all the assessments obtained into one audit checklist and submitted the checklist monthly
to the RC-East official.

To facilitate the collection of oversight information, the Task Force Spartan fielded
mentor CORs used an IJC monthly performance assessment report template. However,
the template did not include the information necessary to complete an audit checklist.
Rather, the performance assessment reports required the military units to rate and provide
comments on three general categories covering the fielded mentor’s quality of service,
mentor relations, and suggested improvements not on the specific requirements outlined
in the SOW. Therefore, the Task Force Spartan fielded mentor CORs did not collect
adequate information to complete the audit checklists and properly identify performance
issues or obtain input on fielded mentor services outlined in the contract requirements.




13
   The fourth audit checklist was submitted by the QAR, who stated that the audit was not performed 

because the COR was on leave. 

14
   Two RC-East oversight personnel were nominated and appointed as Task Force Spartan CORs; however, 

the two CORs worked together to fill one COR position for the Task Force Spartan area of responsibility. 


                                                   35

Additionally, the three audit checklists completed by the Task Force Spartan fielded
mentor CORs and provided by DCMA did not comply with the DCMA Theater Quality
Plan. For example, one question in the audit checklist states “Do the battalion mentoring
teams (total of twelve positions) consist of two mentors to support the following staff
functions: Logistical Support, Personnel Administration/Finance Support?” In April and
May 2012, the fielded mentor COR responded to the requirement with a “yes” and a “not
observed” and stated “Systems are continually improving.” According to the DCMA
Theater Quality Plan, “yes” responses should detail what was evaluated, where, and in
what manner. In addition, the DCMA Theater Quality Plan states that for a “not
observed” response, the COR should explain the reason why as well as when the item
would be assessed in the future. The fielded mentor COR response did not provide what
was evaluated, where, and in what manner or why the requirement was not observed.
Furthermore, the fielded mentor COR should not have answered the question with a
“yes” if he did not observe the requirement. In addition, none of the responses in the
three checklists indicated for which of the 16 locations the fielded mentor CORs
responses applied. As a result, the assigned QAR could not identify to which locations
the questions applied or whether contractors at the 16 locations were performing in
accordance with contract requirements.

In another example, on May 13, 2012, U.S. military
                                                               Figure 2. ANCOP Fielded
personnel working with the ANCOP fielded mentors in
                                                                Mentor Site in RC-East
the RC-East region stated their unit had significant
issues with the fielded mentors at their site in Gardez.
Specifically, ANCOP U.S. military personnel stated the
military needed someone to help the Afghans with
conducting inventories, identifying shortages in
logistics, and establishing accountability of equipment–
responsibilities the contractor was not fulfilling.
Requirement number 66 on the audit checklist
specifically required the ANCOP fielded mentoring
team to support staff functions and to develop               Source: DoD Office of Inspector
effectiveness related to: operational planning, personnel General.
administration/finance support, logistical support, and training. Five performance
assessment reports submitted in April 2012 by ANCOP U.S. military personnel rated the
fielded mentors as marginal in the areas of quality of service and mentor relations.
Specifically, in one mentor’s April 2012 assessment, the narrative comment stated, “The
EPM [Embedded Police Mentor] is either under-resourced or not motivated to answer the
critical questions involved with aligning himself with staff functions in the 4th Kandak.”
The April 2012 assessment showed no improvement since the January 2012 assessment
for that specific mentor. However, no nonconformances were identified in the ANCOP
section of the Task Force Spartan fielded mentor COR checklist for May 2012, which
covered April 2012 services.

One of the Task Force Spartan fielded mentor CORs stated that he did not believe there
was a nonconformance with the fielded mentors if the military unit and fielded mentors
could not work together. However, if the contractor was not performing contract

                                            36

requirements, the COR should have marked nonconformances on the audit checklist. The
ANCOP fielded mentor problems continued from January through April 2012, and
DCMA did not take action to resolve the nonconformances.

RC-Southwest Audit Checklists
DCMA officials provided none of the 18 required audit checklists from January through
June 2012 for the RC-Southwest.

Need to Develop an Oversight Strategy for
Fielded Mentors
DCMA and IJC officials did not have an adequate strategy for oversight of the fielded
mentors. In October 2011, DCMA and IJC officials developed an oversight strategy,
allocating 22 IJC COR billets throughout Afghanistan, which was intended to cover IJC
fielded mentor services on the contract. However, DCMA and IJC did not implement a
process to identify, nominate, and appoint fielded mentor CORs for all fielded mentor
services or identify and correct gaps in oversight.

Additionally, DCMA and IJC personnel did not establish a process to train and mentor
the prospective fielded mentor CORs to ensure that the nominees fully understood the
audit checklist requirements and could
satisfactorily perform oversight of the             The audit team collected 115 audit
contract. Furthermore, DCMA officials did           checklists from 20 IJC personnel in
not coordinate with IJC officials to                 RC-Southwest from August 2011
implement a clear reporting strategy to            through  June 2012; however, DCMA
collect all fielded mentor COR audit                    only had one of those audit
checklists. For example, the audit team             checklists in the central repository.
collected 115 audit checklists from 20 IJC
personnel in RC-Southwest from August 2011 through June 2012; however, DCMA only
had one of those audit checklists in the central repository.

DCMA had two audit checklists for all oversight efforts in RC-Southwest, which
included one of the 115 audit checklists received from IJC personnel. The two audit
checklists in DCMA’s central repository were from two RC-Southwest oversight
personnel who were nominated—but never appointed—as CORs for the contract. The
ACO appointed one of the 20 RC-Southwest oversight personnel who completed
checklists as a COR; however, none of the 26 audit checklists the appointed COR
completed were in DCMA’s central repository.

From June 2011 through June 2012, DCMA delegated oversight duties for RC-Southwest
to three QARs. However, the QARs were unable to assess whether the RC-Southwest
checklists completed were in accordance with the DCMA Theater Quality Plan because
RC-Southwest oversight personnel completed 114 out of 115 audit checklists outside of
the DCMA oversight process. Without having the audit checklists in DCMA’s central
repository, QARs did not have access to them to assess contractor performance.



                                           37

In July 2012, we informed the newly appointed QAR for RC-Southwest that some
military personnel in the RC-Southwest region were completing one audit checklist per
fielded mentor at every location. The RC-Southwest QAR stated he would expect the
fielded mentor CORs to fill out one audit checklist per location for the fielded mentors at
the specific site. We also informed the RC-Southwest QAR that other fielded mentor
CORs, specifically in the RC-East region, were completing one audit checklist for
multiple sites. The RC-Southwest QAR stated DCMA should not be compiling data from
different sites into one audit checklist because it would be too difficult to pinpoint the
location where deficiencies were identified. The RC-Southwest QAR further stated that
issues should be identified at each specific location so DCMA could track deficiencies by
location.

IJC officials should establish a process to identify and nominate fielded mentor CORs for
all fielded mentor services. Additionally, DCMA officials should establish a strategy to
appoint CORs for all fielded mentor services, collect all COR checklists for fielded
mentor services, and identify and correct gaps in oversight.

QARs Need to Provide Training and Review Audit
Checklists for Fielded Mentor Services
The fielded mentor COR checklists were not adequate because the QARs did not always
provide the proper training to fielded mentor CORs or review and follow up on audit
checklists received from the CORs. The DCMA Theater Quality Plan requires QARs
mentor CORs and evaluate and approve COR audit checklists to ensure DCMA quality
standards are met.

Fielded Mentor COR Training
The QARs did not always properly train fielded mentor CORs. For example, while
performing a validation audit in March 2012, a nominated RC-Capital fielded mentor
COR asked the QAR questions about which fielded mentors he was responsible for at his
training site. The QAR directed the nominated COR to the IJC Logistics Officer to
obtain an answer. However, the IJC Logistics Officer was on leave and did not respond
to the COR. The ACO appointed the RC-Capital fielded mentor COR on April 7, 2012,
without verifying the COR fully understood his responsibilities for fielded mentoring
services. The QAR should have trained the COR on his contract-specific responsibilities
before appointing the COR and should have been able to assist the COR when he had
questions. On May 20, 2012, 43 days after the RC-Capital COR was appointed, the IJC
Logistics Officer informed him he was responsible for providing oversight of all fielded
mentors in the Kabul area.

In another example, the QAR who was responsible for providing oversight and COR
management in RC-Southwest from April 2012 to June 2012 did not provide any training
to RC-Southwest fielded mentor oversight personnel. Furthermore, some oversight
personnel in RC-Southwest were completing one audit checklist per fielded mentor at
every location; however, the audit checklist was not intended to assess individual
contractor personnel. Conversely, fielded mentor CORs in the RC-East region were

                                            38

completing one audit checklist for multiple sites, which did not allow QARs to identify
contractual deficiencies at individual fielded mentor sites. Fielded mentor oversight
personnel were not completing audit checklists that the QARs could use to adequately
measure contractor performance because the QARs had not properly trained the oversight
personnel. DCMA officials should establish a process to require QARs to adequately
train fielded mentor CORs and implement procedures for CORs to complete fielded
mentor checklists.

QAR Reviews of Fielded Mentor Audit Checklists
The QARs did not always review and follow up on audit checklists received from the
fielded mentor CORs. For example, the QAR commented on the April and May 2012
Gardez fielded mentor audit checklists by stating that he reviewed them. Although the
QAR stated he reviewed the audit checklists, the QAR did not follow up with the fielded
mentor COR to clarify that the COR, rather than the contractor regional supervisor, was
responsible for providing oversight of the fielded mentors in the Gardez region. DCMA
officials should establish a process to require QARs to consistently review COR
checklists in accordance with DCMA guidance.

Conclusion
DCMA and IJC officials had limited assurance that the Army received contracted fielded
mentor services for the ANCOP, Afghan Uniform Police, and Afghan Border Patrol in
remote and isolated headquarters, regional, provincial, and district locations throughout
Afghanistan. DCMA personnel must properly appoint and train fielded mentor CORs as
well as review all fielded mentor audit checklists to help overcome the challenges in
performing services in remote and dangerous locations throughout Afghanistan.
Additionally, establishing a consistent fielded mentor oversight strategy will improve
contract oversight for all fielded mentor services on the ANP contract.

Recommendations, Management Comments, and
Our Response
C.1. We recommend that the Commander, U.S. Forces-Afghanistan, establish and
implement a fielded mentor oversight strategy to identify and nominate fielded
mentor contracting officer’s representatives for all fielded mentor services.

International Security Assistance Force Joint
Command Comments
The Inspector General, IJC, responding for the Commander, U.S. Forces-Afghanistan,
agreed with our recommendation, stating that the Afghan National Security Forces
Directorate within IJC implemented a monthly program requiring audits beginning at the
Security Force Assistance Advisory Team level. He stated that the findings and results
would be reviewed and consolidated onto one checklist. He also stated that the findings
for each requirement would be documented appropriately and, once documented and
reviewed, results and findings would be forwarded to DCMA.



                                           39

Our Response
Comments from the Inspector General, International Security Assistance Force Joint
Command were responsive, and proposed actions met the intent of the recommendation.
In addition to the comments provided by the Inspector General, IJC, the Acting
Commander, DCMA-International, in response to Recommendation C.2.d, stated that
DCMA-Afghanistan personnel will train the primary CORs and intermediary CORs, then
use a train-the-trainer approach for field-level CORs. The Acting Commander also stated
that DCMA will review a minimum of one audit per COR per month for thoroughness
and adequacy. Therefore, IJC and DCMA-Afghanistan have implemented a fielded
mentor oversight strategy, which includes identifying fielded mentor CORs. No further
comments are required.

C.2. We recommend that the Commander, Defense Contract Management
Agency-Afghanistan:

       a. Establish and implement a strategy to appoint contracting officer’s
representatives for all fielded mentor services.

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International agreed with our recommendation, stating
that it is the requiring activities’ responsibility to provide and nominate the required
number of qualified CORs. The Acting Commander stated that DCMA has an effective
process in place to appoint the properly nominated CORs. He explained that DCMA-
Afghanistan uses the Office of the Secretary of Defense mandated COR tracking tool to
track COR nominations, training documentation, and complete ACO appointments of all
CORs. The Acting Commander added that DCMA-Afghanistan notifies the contracting
officer and the requiring activity of COR vacancies.

Our Response
Comments from the Acting Commander, DCMA-International were responsive, and no
additional comments are required.

       b. Establish and implement procedures to enable contracting officer’s
representatives to consistently and thoroughly complete fielded mentor audit
checklists.

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International agreed with our recommendation, stating
that the DCMA-Afghanistan quality assurance surveillance plan maintained and updated
by DCMA-Afghanistan quality assurance personnel identifies the appointed CORs that
are assigned for each fielded mentor audit. He stated that the lead QAR and product
QARs monitor the plan, and metrics are generated throughout the month to ensure that
fielded mentor audit checklists are completed consistently. The Acting Commander
added that QARs, Government technical product representatives, and product QARs
determine the thoroughness once audits are submitted. In addition, he stated that DCMA-

                                           40

Afghanistan quality assurance personnel will review audits submitted by the intermediary
CORs and the primary CORs for completeness and provide feedback as necessary.

After we received comments, we requested a copy of the quality assurance surveillance
plan referenced in response to the recommendation. DCMA-International personnel
provided a copy of the plan and stated that the document was not an ANP contract-
specific quality assurance surveillance plan; however, it was an overarching spreadsheet
that tracked all contracts requiring surveillance and was used by the DCMA quality
personnel throughout Afghanistan. The spreadsheet provided included rows
demonstrating the required audits for the ANP contract, the QAR and COR assigned to
complete each audit, the date of the last audit completed, the date of the next audit due,
and the COR’s redeployment date.

Our Response
Comments from the Acting Commander, DCMA-International, to include the quality
assurance spreadsheet and explanation provided by DCMA-International after the initial
response was provided, were responsive, and no additional comments are required.

       c. Establish and implement a clear reporting strategy to collect all fielded
mentor contracting officer’s representative checklists and identify and correct gaps
in oversight.

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International agreed with our recommendation, stating
that DCMA-Afghanistan and IJC established a clear reporting strategy that ensures all
fielded mentor checklists are completed and collected in a consistent, predictable manner.
He explained that intermediary CORs will prepare an audit report each month that
includes all mentor activities within their respective regional commands, and
intermediary CORs will then submit their audit reports to IJC headquarters, where the
primary COR will consolidate the audit reports and provide them to DCMA-Afghanistan.
The Acting Commander added that audit checklist completion will be tracked by the
primary COR at IJC, the DCMA-Afghanistan lead QAR, and the product QAR using the
quality assurance surveillance plan and audit completion reports exported from the audit
database. He explained that this tracking will allow DCMA-Afghanistan, TPSO, and IJC
to identify and correct gaps in oversight.

Our Response
Comments from the Acting Commander, DCMA-International were responsive, and no
additional comments are required.

       d. Establish and implement a process to require quality assurance
representatives to adequately train fielded mentor contracting officer’s
representatives and consistently review contracting officer’s representative
checklists in accordance with Defense Contract Management Agency guidance.



                                            41

Defense Contract Management Agency-International Comments
The Acting Commander, DCMA-International agreed with our recommendation, stating
that the process for training CORs is well established. He added that inconsistent access
to the nominated CORs by QARs and Government technical product representatives
limited the effectiveness of the process. The Acting Commander explained that if the
CORs are not available to the QARs or Government technical product representatives due
to operational risks and transportation issues, they cannot accomplish the Phase II
training. He stated that when face-to-face access to the CORs is not possible for the
Phase II training and COR validation audit, the training can only be accomplished
through e-mail exchanges and telephone calls, which is inherently less effective, but the
only option that is available at the time.

The Acting Commander stated that for fielded mentor CORs, DCMA-Afghanistan will
train the primary CORs and the intermediary CORs, and use a train-the-trainer approach
for the field level CORs. He explained that in these circumstances, the intermediary
CORs will train the field-level CORs and hold them accountable to provide the required
surveillance data. The Acting Commander also stated that DCMA-Afghanistan will in
turn hold the primary COR and intermediary CORs accountable by providing timely and
specific feedback to each COR and their supervisors on a monthly basis. He explained
that DCMA-Afghanistan personnel at Camp Eggers, Afghanistan, will train the
intermediary CORs and primary CORs on contract-specific requirements and
expectations and will review a minimum of one audit record per COR each month for
thoroughness and adequacy. The Acting Commander also stated that the DCMA-
Afghanistan ACO will appoint each intermediary COR and primary COR upon
satisfactory completion of training.

Our Response
Comments from the Acting Commander, DCMA-International were responsive, and no
additional comments are required.




                                           42

Finding D. Red River Army Depot CORs
Were Not Providing Effective Oversight
NTM-A/CSTC-A and the Red River Army Depot (RRAD) personnel nominated six
CORs who we interviewed that were not effectively providing oversight of the
ANP contract. This occurred because NTM-A/CSTC-A personnel developed a
memorandum of agreement with RRAD that did not identify appropriate
COR qualifications. As a result, contractor performance at ANP training sites where the
six RRAD CORs were appointed was not adequately measured and assessed.

COR Memorandum of Agreement
NTM-A/CSTC-A and RRAD issued a memorandum of agreement on March 12, 2011,
and reissued the memorandum with minor revisions on December 5, 2011. Its purpose
was to establish a cooperative relationship between NTM-A/CSTC-A and RRAD for
filling contract oversight and surveillance personnel positions in Afghanistan and to
develop cross-organizational communication and administrative processes for timely
fills, backfills, extensions, personnel overlap, and funding processes. The memorandum
stated that NTM-A/CSTC-A lacked the personnel to provide surveillance at contract
locations. In those cases, NTM-A/CSTC-A provided funding to RRAD15 to hire trained
CORs to fill the shortfall.

COR Nomination Process
NTM-A/CSTC-A personnel stated that when a COR billet needs to be filled, the RRAD
liaison officer sends resumes from RRAD employees to TPSO personnel. The TPSO
personnel review the resumes and select a COR. TPSO personnel stated that
NTM-A/CSTC-A personnel nominate the COR, who is then appointed by DCMA.

Nominated and Appointed CORs Were Ineffective
NTM-A/CSTC-A and RRAD personnel did not nominate CORs who could effectively
provide oversight of the ANP contract. Personnel from the NTM-A/CSTC-A Contract
Management and Oversight Office stated that the quality of performance by
RRAD CORs was a “mixed bag,” and if the requirements owners identified issues with
the RRAD CORs, they should contact the Contract Management and Oversight office to
remedy the situation.

TPSO personnel stated a RRAD COR was removed from her surveillance responsibilities
at CTC Kabul on August 21, 2011, because she refused to come out of her living quarters
to conduct audits. TPSO personnel also stated a COR was removed from RTC Helmand
because he did not adequately perform his COR duties. The COR needed remedial
training and was transferred to RTC Herat to conduct oversight. However, the COR still


15
  RRAD’s mission is to conduct ground combat and tactical system sustainment maintenance operations
and related support services worldwide, for U.S. and allied forces and friendly nations in support of the
warfighter.

                                                    43

did not perform all of his assigned duties and did not complete the trainer/mentor
checklist. The COR was not removed for cause but was redeployed after 6 months in
Afghanistan. After our site visits, the ACO removed an additional RRAD COR from his
surveillance responsibilities for cause. NTM-A/CSTC-A personnel stated that on
August 5, 2012, the RRAD COR was removed from RTC Helmand for not being actively
involved in monitoring the contractor’s performance, not attending coordination meetings
between the requirements owner and the contractor, and not actively managing problems
between the requirements owner and the contractor.

CORs Needed to Be Better Qualified
NTM-A/CSTC-A personnel developed a memorandum of agreement with RRAD that did
not identify appropriate COR qualifications. Federal Acquisition Regulation
1.602-2(d)(3), “Responsibilities,” states that, “A COR must be qualified by training and
experience commensurate with the responsibilities to be delegated in accordance with
department/agency guidelines.” The “must have” experience should be prior COR or
quality assurance work experience; however, the memorandum did not include this
requirement. Additionally, the COR Handbook states that the COR should have technical
expertise in the services being performed.

The memorandum of agreement required the CORs to be trained, qualified, and capable
of working with little direct supervision. However, the memorandum did not specify the
qualifications that would lead to successful
                                                    The memorandum did not specify
oversight of training and life support functions.
                                                   the qualifications that would lead
Specifically, the memorandum required that the
                                                   to successful oversight of training
CORs be willing and able to leave the base to
                                                       and life support functions.
conduct surveillance and that CORs assigned to 

life support service missions have previous construction; electrical; heating, ventilation, 

and air conditioning; and plumbing experience. 


The memorandum further stated that previous deployed experience was desirable.

However, four of six RRAD CORs we interviewed were previously Mine-Resistant, 

Ambush-Protected vehicle mechanics whose skills were not transferrable to a contract 

that provided training and life support for ANP students. For example, a COR nominated 

and appointed to the Training Sustainment Site-Lonestar, where the contractor conducted 

life support services, did not have any previous construction; electrical; heating, 

ventilation, and air conditioning; and plumbing experience as required. The COR did not 

complete any of her nine audit checklists for May and June 2012, in accordance with 

DCMA guidance, while assigned to Training Sustainment Site-Lonestar. In another 

example, a RRAD COR with no prior COR or quality assurance experience did not 

complete any of his 13 audit checklists for May and June 2012, in accordance with 

DCMA, while assigned to RTC Herat. 


Of the six RRAD CORs we interviewed, three stated they had previous quality assurance 

experience; however, none had prior COR experience. One of those RRAD CORs did 

not complete audit checklists in accordance with DCMA criteria, although his audit 

checklists were more thorough and detailed than the audit checklists completed by CORs 


                                             44

without prior quality assurance experience. Another RRAD COR with quality assurance
experience thoroughly completed 1 months’ worth of audit checklists, but then copied
and pasted the majority of the audit checklist from one month to the next. In contrast, the
COR at CTC Kabul stated she had prior life support services quality assurance
experience, was directly hired by NTM-A/CSTC-A, and had no affiliation with RRAD.
The COR adequately completed all eight audit checklists required for May and June 2012
at CTC Kabul.

A newly appointed COR is likely to have
                                                 A newly appointed COR is likely to
limited success in thoroughly documenting
                                                 have limited success in thoroughly
contractor weaknesses without previous
                                                documenting contractor weaknesses
oversight or quality assurance experience.
                                                    without previous oversight or
Therefore, the NTM-A/CSTC-A Director of
                                                   quality assurance experience.
Contract Management and Oversight should
rescind the memorandum, as it does not
include the qualifications necessary to perform oversight of the ANP contract. Instead,
the NTM-A/CSTC-A Director of the Training Program and Support Office should
coordinate with requirement owners to nominate CORs with COR or quality assurance
experience or both.

Conclusion
NTM-A/CSTC-A and RRAD personnel selected CORs who were not effectively
performing oversight of the ANP contract. The CORs from RRAD did not have the
experience necessary to provide adequate oversight of life support, training, and security
services without direct supervision. The memorandum of agreement between
NTM-A/CSTC-A and RRAD should have included the criteria that the CORs must have
prior COR or quality assurance experience to be nominated as a COR on the
ANP contract.

Recommendations, Management Comments, and
Our Response
D.1. We recommend that the North Atlantic Treaty Organization Training
Mission-Afghanistan/Combined Security Transition Command-Afghanistan,
Director of Contract Management and Oversight, rescind the North Atlantic Treaty
Organization Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan and Red River Army Depot memorandum of agreement as
it does not include the qualifications necessary to perform oversight of the ANP
contract.

Combined Security Transition Command-Afghanistan
Comments
The Deputy Commanding General, CSTC-A, responding for the NTM-A/CSTC-A,
Director of Contract Management and Oversight, did not agree with the recommendation.
He stated that the memorandum of agreement between NTM-A/CSTC-A and RRAD that
was signed December 2, 2011, will remain in effect pending an update. The Deputy

                                            45

Commanding General also stated that the memorandum of agreement is pending update
for fiscal year 2014 and will incorporate changes to address previous COR and QAR
experience to ensure hiring the best applicants. Additionally, he stated that in January
2013, all RRAD CORs assigned to the ANP contract attended mandatory COR refresher
training provided by DCMA.

Our Response
Although the Deputy Commanding General did not agree with our recommendation, the
actions proposed met the intent of the recommendation. No additional comments are
required; however, we request the Deputy Commanding General provide a copy of the
memorandum of agreement that addresses hiring CORs with previous COR or quality
assurance experience when it is finalized and signed by NTM-A/CSTC-A and RRAD
personnel.

D.2. We recommend that the North Atlantic Treaty Organization Training
Mission-Afghanistan/Combined Security Transition Command-Afghanistan,
Director of the Training Program Support Office, coordinate with requirement
owners to nominate contracting officer’s representatives that have prior contracting
officer’s representative or quality assurance experience or both.

Combined Security Transition Command-Afghanistan
Comments
The Deputy Commanding General, CSTC-A, responding for the NTM-A/CSTC-A,
Director of TPSO, agreed with our recommendation that requirement owners nominate
CORs that have prior COR or quality assurance experience. He stated that TPSO will
work with all requirements owners to ensure that they are aware of the Deputy Secretary
of Defense Memorandum, “Monitoring Contract Performance in Contracts for Services,”
dated August 22, 2008, which mandates the requiring activities to ensure that properly
trained and ready CORs are assigned prior to contract award. The Deputy Commanding
General stated that where RRAD is providing COR support, the nominee screening will
consist of reviewing all applicant resumes for previous COR or quality assurance
experience and only accepting the best qualified applicants. Additionally, he stated that
at a minimum, all CORs identified by the requiring activities will meet the levels
identified within the Under Secretary of Defense Memorandum, “DoD Standard for
Certification of Contracting Officer’s Representatives (COR) for Service Acquisitions,”
dated March 29, 2012.

Our Response
Comments from the Deputy Commanding General, CSTC-A were responsive, and no
additional comments are required.




                                           46

Appendix A. Scope and Methodology
We conducted this performance audit from March 2012 through March 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This is the second in a series of audits on contract W91CRB-11-C-0053, the ANP
training/mentoring and logistics support contract. We reviewed the basic ANP contract,
awarded December 20, 2010, to DynCorp, and 21 subsequent contract modifications,
dated February 7, 2011, through September 28, 2012. We reviewed contract files,
including ANP contract invoices, DCMA-created audit checklists, the contractor’s
quality assurance surveillance plan, SOW modifications, DCMA contract administration
delegations, DCMA-Afghanistan specific guidance, and e-mail correspondence. We
focused our review of COR oversight on 12 ANP training/mentoring locations and
3 ANP fielded mentor regions for the period January 2012 through June 2012. We
reviewed the Federal Acquisition Regulation, Defense Federal Acquisition Regulation
Supplement, DoD Memoranda, and DCMA criteria specific to the oversight of the
ANP contract.

We determined the universe of all ANP training/mentoring and logistics support sites in
Afghanistan as of March 2012 and non-statistically selected 12 training/mentoring sites
out of 23 total sites and 3 of the 6 fielded mentor regions to review for proper QAR and
COR oversight. We selected 10 ANP locations that had a COR onsite and 2 locations
that did not have a COR appointed as of May 2012 to determine whether a lack of
oversight personnel at the training locations affected contract performance. Our
evaluation of training and mentoring sites was based on whether the site was expected to
close, area-specific security concerns, and travel restrictions. We visited at least one
training site in each of the six regions of Afghanistan. We interviewed oversight
personnel and contractor personnel, and we reviewed contract documentation for the
following training locations (see Appendix C for map):
    x Afghan MoI
    x CTC Kabul
    x O-4 Compound
    x RTC Bamiyan (no COR onsite)
    x RTC Gardez
    x RTC Herat
    x RTC Kandahar
    x RTC Konduz
    x RTC Helmand
    x RTC Jalalabad (no COR onsite)
    x RTC Mazar-e-Sharif
    x Training Sustainment Site Lonestar


                                           47

In addition, we interviewed fielded mentor oversight personnel and reviewed contract
documentation for fielded mentor work performed in RC-Capital, RC-East, and
RC-Southwest. We also conducted site visits and interviewed contracting, oversight, and
program personnel from NTM-A/CSTC-A, DCMA-Afghanistan, ACC-RI, and IJC to
understand the oversight reporting processes and procedures for the ANP contract.

We reviewed 166 DCMA audit checklists completed from January through June 2012.
We reviewed each checklist to determine whether DCMA personnel met the Theater
Quality Plan requirements for completing checklists. We used auditor judgment to
conclude that DCMA personnel adequately completed the overall audit checklist if 75
percent or more of the individual answers to the questions met the Theater Quality Plan
requirements; if the overall checklist stated when, where, and how the audit was
performed; and if the checklist documented who performed the audit.

Use of Computer-Processed Data
We relied on computer-processed data from the Electronic Document Access website, a
web-based system that provides secure online access, storage, and retrieval of contracts
and contract modifications to authorized users throughout DoD. We used contract
documentation retrieved from the Electronic Document Access website to determine the
total contract value and review the changes made to the ANP contract and SOW. We
compared the documents we retrieved from the Electronic Document Access website to
the documentation provided by contracting and program personnel during our site visits
and verified that the documentation we retrieved from the Electronic Document Access
website was accurate.

As a result of our analysis, we determined that the Electronic Document Access website
was sufficiently reliable for the purpose of meeting our audit objectives and providing the
necessary documents to answer our audit steps for the ANP contract.

Use of Technical Assistance
The DoD IG Quantitative Methods Division assisted with the audit. Specifically,
Quantitative Methods Division personnel provided the audit team with guidance
regarding non-statistically selecting ANP training and mentoring sites to include in our
review.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), DoD IG, and the
Department of State Inspector General (DOS IG) have issued nine reports discussing
ANP challenges and oversight issues. Unrestricted GAO reports can be accessed over the
Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted DOS IG reports can be accessed at
http://www.oig.state.gov.




                                            48

GAO
Report No. GAO 12-293R, “Afghan Security: Department of Defense Effort to Train
Afghan Police Relies on Contractor Personnel to Fill Skill and Resource Gaps,” February
23, 2012

Report No. GAO 11-402R, “Multiple U.S. Agencies Provided Billions of Dollars to Train
and Equip Foreign Police Forces,” April 27, 2011

Report No. GAO-09-280, “Afghanistan Security: U.S. Programs to Further Reform
Ministry of Interior and National Police Challenged by Lack of Military Personnel and
Afghan Cooperation,” March 9, 2009

DoD IG
Report No. DODIG-2012-094, “Afghan National Police Contract Requirements Were
Not Clearly Defined but Contract Administration Improved,” May 30, 2012

Report No. SPO-2011-003, “Assessment of U.S. Government Efforts to Train, Equip,
and Mentor the Expanded Afghan National Police,” March 3, 2011

Report No. D-2010-042, “DoD Obligations and Expenditures of Funds Provided to the
Department of State for the Training and Mentoring of the Afghan National Police,”
February 9, 2010

DOS IG and DoD IG
Report No. AUD/CG-11-44 and DoD Report No. D-2011-102, “Afghan National Police
Training Program Would Benefit From Better Compliance with the Economy Act and
Reimbursable Agreements,” August 25, 2011

Report No. AUD/CG-11-42 and DoD Report No. D-2011-095, “Afghan National Police
Training Program: Lessons Learned During the Transition of Contract Administration,”
August 15, 2011

Report No. AUD/CG-11-30 and DoD Report No. D-2011-080, “DoD and DOS Need
Better Procedures to Monitor and Expend DoD Funds for the Afghan National Police
Training Program,” July 7, 2011




                                          49

Appendix B. Monthly Oversight Performed
at Sites Visited
                     Type of
Training Site                                                           Month 2012
                    Che cklist
                                   January     February         March                 April           May           June
                        FPS                    X                                  X
Mazar-e-Sharif          FSO                        X                                    X
                        TMS
                        BLS                        X                                    X
                        FPS                    X                                                  X         X   X          X
  CTC Kabul             FSO            X           X                                                  X              X
                        TMS
                        BLS                        X                                                  X              X
                        FPS
     MOI                FSO
                        TMS            X           X                                    X             X              X
                        BLS
                        FPS
0-4 Compound            FSO
                        TMS                                                                                          X
                        BLS
                        FPS                X           X                 X                        X         X   X          X
  RTC Herat             FSO            X                                                              X              X
                        TMS                                                                                          X
                        BLS            X           X                X                                 X              X
                        FPS        X       X   X       X                                          X         X   X          X
 RTC Gardez             FSO            X           X                                                  X              X
                        TMS
                        BLS            X           X                                                  X              X
                        FPS
 RTC Bamiyan            FSO            X                                                              X
                        TMS
                        BLS            X                                                              X
                        FPS        X       X   X       X        X                 X           X   X         X   X          X
 RTC He lmand           FSO            X           X                X                   X             X              X
                        TMS            X           X                X                                 X              X
                        BLS            X           X                X                   X             X
                        FPS        X       X                             X        X           X   X         X
 RTC Konduz             FSO            X                                                X             X
                        TMS        X       X
                        BLS            X                                                X             X
                        FPS        X       X   X       X                 X        X           X             X   X          X
 TSS Lonestar           FSO            X           X                                    X             X              X
                        TMS            X           X                                                  X              X
                        BLS            X           X                                    X             X              X
                        FPS        X       X   X       X                          X           X   X
 RTC Jalalabad          FSO            X           X                                    X             X
                        TMS
                        BLS                        X                                    X             X
                        FPS                X   X       X        X        X        X           X   X         X   X          X
RTC Kandahar            FSO                        X                X                   X             X              X
                        TMS            X           X                X                                 X              X
                        BLS                        X                X                   X             X              X


      X Overs ight Performed                   Total Check lis ts Required            28 7
         Training S ite Clos ed                Total Check lis ts Completed           16 6
         Overs ight Not Required               Total Check lis ts Not Completed       12 1




                                                          50

Appendix C. Map of ANP Training Sites and
Fielded Mentor Regions




                    51

  Appendix D. Regional Command-Southwest
  Oversight Personnel and COR
  Appointment Status
         IJC Oversight Personnel                                DCMA Records

                                  Checklists       Date            Date        Redeployment
Number    Oversight Timeframe     Completed      Nominated       Appointed         Date
  1          December 2011            2          Not Provided   Not Provided    Not Provided
               August 2011,
  2            October 2011           2           6/21/2011     Not Provided   December 2011
             December 2011
  3        through March 2012         5          Not Provided   Not Provided    Not Provided
             December 2011
  4        through March 2012        10          Not Provided   Not Provided    Not Provided
  5           October 2011            1           6/21/2011     Not Provided   November 2011
  6             May 2012              1          Not Provided   Not Provided    Not Provided
               August 2011
  7      through November 2011       26           8/22/2011      11/26/2011    February 2012
              December 2011
  8         through April 2012        5          Not Provided   Not Provided    Not Provided
  9            May 2012               1          Not Provided   Not Provided    Not Provided
  10          November 2011           1          Not Provided   Not Provided    Not Provided
              November 2011
  11     through December 2011        2          Not Provided   Not Provided    Not Provided
               January 2012
  12        through April 2012        4          Not Provided   Not Provided    Not Provided
              November 2011
  13        through April 2012        6          Not Provided   Not Provided    Not Provided
         December 2011 through
  14      April 2012, June 2012      31          Not Provided   Not Provided    Not Provided
               August 2011
  15     through November 2011        4            6/4/2011     Not Provided   February 2012
  16            May 2012              1          Not Provided   Not Provided    Not Provided
                April 2012
  17        through May 2012          6          Not Provided   Not Provided    Not Provided
  18         December 2011            1          Not Provided   Not Provided    Not Provided
  19           April 2012             1          Not Provided   Not Provided    Not Provided
  20           April 2012             5           3/17/2012     Not Provided    March 2013
   Total Reports Completed:          115




                                           52

International Security Assistance Force Joint Command
Comments




                  Click to add JPEG file




                                   

Click to add JPEG file




                 

Defense Contract Management Agency-International
Comments




                 Click to add JPEG file




                                  

Click to add JPEG file




                 

Click to add JPEG file




                 

Click to add JPEG file




                 

Click to add JPEG file




                 

Click to add JPEG file




                 

Click to add JPEG file




                 

Combined Security Transition Command-Afghanistan
Comments




                Click to add JPEG file




                                 

Click to add JPEG file




                 

Click to add JPEG file




                 

Army Contracting Command Comments





               Click to add JPEG file




                                

Click to add JPEG file




                 

Click to add JPEG file




                 

Click to add JPEG file




                 

Click to add JPEG file




                 

Click to add JPEG file




                 

Click to add JPEG file




                 

